<html>
<title> - GAO HIGH RISK LIST: TURNING AROUND VULNERABLE INDIAN PROGRAMS</title>
<body><pre>[Senate Hearing 115-308]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-308
 
     GAO HIGH RISK LIST: TURNING AROUND VULNERABLE INDIAN PROGRAMS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 13, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-222 PDF                 WASHINGTON : 2018      
 
 
 
 


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 13, 2018....................................     1
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     3
Statement of Senator Udall.......................................     2

                               Witnesses

Dearman, Tony, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................    14
    Prepared statement...........................................    15
LaCounte, Darryl, Acting Director, Bureau of Indian Affairs, U.S. 
  Department of the Interior.....................................    18
    Prepared statement...........................................    19
Rusco, Frank, Director, Natural Resources and Environmental 
  Issues, U.S. Government Accountability Office..................     4
    Prepared statement...........................................     6
Weahkee, Rear Admiral Michael D., Acting Director, Indian Health 
  Service, U.S. Department of Health and Human Services..........    23
    Prepared statement...........................................    24

                                Appendix

Response to written questions submitted by Hon. Tom Udall to RADM 

  Michael D. Weahkee.............................................    35


     GAO HIGH RISK LIST: TURNING AROUND VULNERABLE INDIAN PROGRAMS

                              ----------                              


                        WEDNESDAY, JUNE 13, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:32 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon.
    I hereby call this oversight hearing to order.
    Just over a year ago, the Committee began examining the 
Government Accountability Office's High Risk List. For the 
first time, three Federal Indian programs, Indian Energy, 
Education and Health Care were included on the list due to 
their vulnerability to mismanagement, waste, fraud and abuse.
    These Federal programs are vitally important to Native 
American communities. They affect the safety of school 
buildings, the quality of health care and education and the 
advancement of Indian energy development.
    This is the Committee's third hearing focusing on 
evaluating efforts to address the GAO recommendations for 
tribal health, education and energy programs. Based on some 
recent information from the agency, there has been some 
progress from the Bureau of Indian Education and the Indian 
Health Service including recommendations and improving 
services.
    Over the past year, we have seen very little progress in 
implementing Indian energy. Only one out of the 14 GAO 
recommendations has been addressed by the Department of the 
Interior regarding Indian energy development.
    The Department of the Interior is supposed to facilitate 
tribal resource development. However, for many tribes, the 
agency has only delayed such activity. Our past hearings, as 
well as the GAO reports, have confirmed that the Indian Energy 
Program at DOI has cost tribes millions of dollars in delayed 
or missed opportunities for economic development.
    In my home State of North Dakota, the Mandan, Hidatsa and 
Arikara Nation, also known as the Three Affiliated Tribes, has 
been an industry leader in oil production. In fact, if the 
Three Affiliated Tribes were their own State, they would be the 
seventh leading oil export producer in the United States. Just 
that one reservation, by itself, would be the seventh largest 
oil producing State if it were a State.
    It is of critical importance that the trustee does not 
inhibit or prevent tribes such as the Three Affiliated Tribes 
from engaging in activities that promote economic development 
in Indian Country. Many tribes have invested in energy 
development. These tribes have communicated to this Committee 
their disappointment with the prioritization of energy 
development at the Department of the Interior.
    Some tribal leaders have even suggested moving the Indian 
energy portfolio from the Department of the Interior into the 
Department of Energy. Because of this feedback, this Congress I 
introduced S. 245, the Indian Tribal Energy Development and 
Self Determination Act of 2017 along with Senators Barrasso, 
Enzi, Gardner, Heitkamp, Lankford, McCain, and Moran.
    This bill was developed in consultation with the energy-
producing Indian tribes to correct burdensome agency 
regulations. Most notably, the bill directs the Department of 
the Interior to provide Indian tribes with technical assistance 
in planning their energy resource development programs, cuts 
red tape and makes it easier for Indian tribes to develop their 
own resources, and streamlines the process for approving tribal 
energy resource agreements.
    Once again, Congress must step in to ensure the agency 
prioritizes and corrects critical and failing programs. Moving 
forward, we will continue to work to ensure the Department is 
giving the appropriate attention to these matters.
    I want to welcome all the witnesses today. I look forward 
to hearing about the work being done to turnaround these 
programs. Additionally, I look forward to discussing the GAO 
recommendations that have been closed and a specific timeline 
for closing outstanding recommendations.
    More importantly, I want to know how these solutions have 
benefitted Indians and tribal communities.
    Before we hear from our witnesses, I want turn to turn to 
Vice Chairman Udall for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven.
    As you mentioned, this is our third hearing on the GAO High 
Risk Report for Indian programs. I appreciate your follow-
through on this topic.
    As this Committee is well aware, the Federal Government has 
trust and treaty obligations to provide vital services to 
American Indian and Alaska Native tribes. GAO's review of 
Indian programs helps ensure our government is living up to and 
respecting those obligations.
    However, including Indian programs on the GAO High Risk 
list confirms what many in Indian Country have reported to this 
Committee; we must do better. Year after year, tribal 
communities report gaps in Federal programs. In response, our 
Federal partners point to workforce turnover and lack of 
resources as the source of programs' ineffectiveness.
    The Gallup Indian Medical Center, in my home state of New 
Mexico, is a ``case in point,'' just one of the most recent 
examples showing how much more we have to do. GIMC is located 
in a 59 year old facility with a 19 percent vacancy rate. 
Recent deficiencies at GIMC uncovered by the Centers for 
Medicare and Medicaid Services mean the facility is at risk of 
losing its accreditation, just like several hospitals in the 
Great Plains and, as of last week, the IHS facility in the 
Billings Service Area.
    It is true that the root cause of many of GIMC's 
deficiencies can be traced to the facility's age and its 
struggle to recruit and retain staff, but these barriers to 
quality care are not impossible to overcome. IHS leadership 
must prioritize deficiencies by requesting the resources they 
need to fully address the accreditation crisis in the Great 
Plains, Billings and Navajo Service Areas. If IHS really wants 
to prevent this crisis from spreading even further, leadership 
must commit to realizing meaningful improvements in the way the 
Service is managed.
    The real goal of the High Risk List, and this Committee's 
focus on it, is to make sure BIA, BIE, and IHS are working 
toward meaningful institutional change. We need to see evidence 
of cultural shifts within all three agencies that will lead to 
proactive improvements in Federal Indian program delivery.
    My questions for the panel today will focus on a central 
theme: Is institutional change actually happening or are folks 
merely ``checking boxes''? I am concerned that agency 
leadership is too focused on counting the number of GAO 
recommendations that have been closed.
    As GAO points out in today's testimony, leadership should 
instead focus on addressing ``systemic management weaknesses.'' 
The road map to improving Indian program delivery requires 
leadership commitment, capacity building, planning, and careful 
monitoring.
    The members of this Committee must do all we can to address 
the Federal Government's shortcomings to improve accountability 
and administration of Indian Country programs. I look forward 
to today's testimony from our witnesses and I hope we can have 
a frank discussion about the real impacts each agency's efforts 
are having on improvement.
    Thank you, Mr. Chairman.
    The Chairman. Are there other opening statements? Senator 
Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Very briefly, Mr. Chairman, I want to 
thank you and the Vice Chairman for this hearing as a follow up 
to the two previous hearings about the GAO and its High Risk 
List.
    I thank the GAO for identifying the numerous challenges 
that face our Federal Indian programs in providing many of the 
recommendations. I certainly hope that all our taking these 
recommendations very seriously and using them as a path 
forward.
    We know the criticality of these programs to Alaska Natives 
and Native Americans and making sure we do right by these 
programs is really what we are all about.
    As part of their testimony, the GAO stated there is a list 
of criteria that an agency must meet in order to be removed 
from the GAO's High Risk List. One of those criteria is 
leadership commitment, not only that but permanent leadership 
commitment.
    Both the Assistant Secretary for Indian Affairs, the BIA 
Director and the IHS Director are not confirmed at this point 
in time. I think that's a problem for us, Mr. Chairman. As 
stated in the GAO testimony, the lack of leadership makes it 
incredibly difficult to follow through with previously-
identified plans and time frames for completing some of the 
activities identified by the GAO. It seems as though we are in 
a situation where you have the agency starting over and over in 
the process to identify or perhaps implement corrective 
actions.
    I know this Committee worked expeditiously to move the 
nominees that came before this Committee. We worked hard to see 
that Tara Sweeney, nominated to be the Assistant Secretary for 
BIA, would be moved out and be before the full Senate. She is 
there.
    She is keyed up and ready to go. She plans to spend her 
initial days listening to tribal leaders, listening to members 
of the congressional committees and other agencies, like the 
GAO, to hear about the top priorities and how she can establish 
this clear, comprehensive action plan going forward.
    This is exactly the type of leadership that we need that 
will help us get agencies, like the BIA and the BIE, off this 
High Risk List. I only add this, Mr. Chairman, because I think 
it is imperative that, as we move nominees through the 
Committee, we work aggressively to get them through the full 
process so that they can get to work, doing the work that 
definitely needs to be addressed, as the GAO report clearly 
points out.
    Thank you for that, Mr. Chairman.
    The Chairman. Thank you, Senator Murkowski.
    We will now hear from our witnesses: Mr. Frank Rusco, 
Director of Natural Resources and Environmental Issues, 
Government Accountability Office; Mr. Tony Dearman, Director, 
Bureau of Indian Education, U.S. Department of the Interior; 
Mr. Darryl LaCounte, Acting Director, Bureau of Indian Affairs, 
Department of the Interior; and Rear Admiral Michael Weahkee, 
Acting Director, Indian Health Service, U.S. Department of 
Health and Human Services.
    I want to remind the witnesses that your full testimony 
will be made a part of the official hearing record so please 
keep your statements to five minutes so that we have time for 
questions.
    With that, Mr. Rusco, if you would proceed.

          STATEMENT OF FRANK RUSCO, DIRECTOR, NATURAL 
           RESOURCES AND ENVIRONMENTAL ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Rusco. Thank you. Chairman Hoeven, Vice Chairman Udall 
and members of the Committee, thank you for the opportunity to 
provide an update on progress made to resolve the underlying 
issues that led GAO to put programs that serve tribes and their 
members on GAO's High Risk List.
    GAO has made about 50 recommendations to improve management 
weaknesses at some Interior and Health and Human Services 
agencies. To date, a little more than a third of those 
recommendations have been closed and they are primarily the 
result of agency actions to implement the recommendations.
    In addition, GAO has found agency leadership to be 
receptive to ongoing discussions to identify and address the 
underlying management problems that resulted in these specific 
recommendations.
    For these reasons, GAO sees significant progress made by 
the agencies relative to the management weaknesses identified 
in the High Risk Report. However, GAO will continue to audit 
these programs and if additional weaknesses are identified, 
there will be additional recommendations.
    This is why to get off the High Risk Group List, closing 
recommendations is not enough. Agencies need to identify the 
root causes of management weaknesses and address those root 
causes.
    Specifically, GAO has five criteria agencies must meet: 
first is demonstrated leadership commitment; second is the 
capacity and other resources needed to identify and address 
root causes; third is an action plan to address root causes; 
fourth is a monitoring plan that identifies measures of program 
success and regularly evaluates those measures; and fifth is 
demonstrated progress in addressing root causes.
    In regular meetings between GAO teams and agency 
leadership, we have identified some progress toward meeting 
most, if not all, of these criteria. Still, additional progress 
is required in all areas, particularly in the areas of 
leadership commitment and the capacity and resources needed to 
identify and address root causes.
    With regard to leadership commitment, Indian Affairs, IHS, 
BIA and BIE have each taken some actions to partially meet this 
criterion. For example, leadership of all agencies has been 
receptive to meeting with GAO teams regularly and working to 
develop a better understanding of what needs to be done to get 
off the High Risk List. However, fully meeting the leadership 
commitment criterion would require that accountability be 
assigned to specific leaders and teams in each agency to 
identify and resolve root causes.
    These assignments need to be a part of the job descriptions 
for those leaders and teams. Also, the teams and leaders need 
to be given the authority to identify root causes and the 
resources to address them. Lastly, these assignments need to 
continue to function even in the face of leadership changes.
    In order to identify and address root causes, agencies need 
to build capacity. Indian Affairs, IHS, BIA and BIE have each 
made some progress toward partially meeting this criterion.
    For example, BIE has been able to hire school safety 
officers and other personnel. BIA conducted a survey to 
identify workforce needs for the Indian Energy Service Center. 
IHS officials have said the agency is expanding the role of 
internal audit staff to complement GAO and IG audits.
    However, all of the agencies have vacancies in key offices. 
For example, BIA has said it does not have sufficient staff to 
do comprehensive workforce planning. Such a plan would need to 
include not just headquarters staff and leadership, but also 
workforce at the regional and agency office level to ensure the 
right people with the right skills are in the right places to 
meet program responsibilities.
    Ultimately, to meet fully the capacity criterion, Interior 
and IHS must prioritize the High Risk Program serving tribes 
and their members and provide Indian Affairs, IHS, BIA and BIE 
with enough capacity and other resources to identify and 
address root causes of management weaknesses.
    Thank you. This ends my oral remarks. My colleagues and I 
will be happy to answer any questions you may have.
    [The prepared statement of Mr. Rusco follows:]

  Prepared Statement of Frank Rusco, Director, Natural Resources and 
      Environmental Issues, U.S. Government Accountability Office
  high risk--agencies need to continue efforts to address management 
          weaknesses of federal programs serving indian tribes
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee:
    I am pleased to be here today to discuss the status of actions by 
the Departments of the Interior (Interior) and Health and Human 
Services (HHS) to address issues that led to the high-risk designation 
we made related to the federal management of programs that serve tribes 
and their members. We added this area to our High Risk List in February 
2017 because of our concern about the ability of agencies within these 
departments to manage (1) education and health care programs that serve 
tribes and their members and (2) Indian energy resources. \1\ In 
particular, we found numerous weaknesses in how Interior's Bureau of 
Indian Education (BIE) and Bureau of Indian Affairs (BIA)--under the 
office of the Assistant Secretary, Indian Affairs (Indian Affairs)--
managed education and energy resources and how HHS's Indian Health 
Service (IHS) managed health care services. We reported that these 
management weaknesses jeopardized the health and safety of American 
Indians served by these programs and limited opportunities for tribes 
and their members to use energy resources to create economic benefits 
and improve the well-being of their communities. This testimony 
provides examples of actions taken and progress made by these agencies 
to address the five criteria we use for determining whether to remove a 
high-risk designation (leadership commitment, capacity, action plan, 
monitoring, and demonstrated progress).
---------------------------------------------------------------------------
    \2\ 1GAO, High-Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, D.C.: 
Feb. 15, 2017).
---------------------------------------------------------------------------
    In 2016, Congress found in the Indian Trust Asset Reform Act that 
``through treaties, statutes, and historical relations with Indian 
tribes, the United States has undertaken a unique trust responsibility 
to protect and support Indian tribes and Indians.'' \2\ As further 
stated in that act, the fiduciary responsibilities of the United States 
to Indians arise in part from commitments made in treaties and 
agreements, in exchange for which Indians surrendered claims to vast 
tracts of land. The act notes that this history of federal-tribal 
relations and understandings has benefitted the people of the United 
States and established ``enduring and enforceable [f]ederal obligations 
to which the national honor has been committed.'' Through improvements 
to federal management of programs that serve tribes and their members, 
agencies can improve the efficiency of federal programs under which 
services are provided to tribes and their members. Such improvements 
would be consistent with the expressed view of Congress as to the 
federal government's trust responsibilities and would strengthen 
confidence in the performance and accountability of the federal 
government. In light of this unique trust responsibility and concerns 
about the federal government's management of Indian education and 
health care programs and Indian energy resources and because these 
issues uniquely affect tribal nations and their members, we added the 
federal management of programs serving tribes and their members as a 
high-risk area in February 2017. \3\
---------------------------------------------------------------------------
    \2\ Pub. L. No. 114-178,  101 (2016)(codified at 25 U.S.C.  
5601).
    \3\ GAO-17-317.
---------------------------------------------------------------------------
    The focus of this high-risk area is on management weaknesses within 
federal agencies that administer programs that serve tribes and their 
members. However, not all federal programs are administered by federal 
agencies. In accordance with federal Indian policy that recognizes the 
right of Indian tribes to self-government and that supports tribal 
self-determination, a number of tribes have elected to take over the 
administration of certain federal programs and services from BIA, BIE, 
and IHS. Our recommendations identified in the high-risk area are 
neither reflective of the performance of programs administered by 
tribes nor directed at any tribally operated programs and activities.
    We have ongoing work reviewing tribes' use of selected legal 
mechanisms to take over the administration of federal programs from BIA 
and to assume control and decisionmaking authority over surface leasing 
of their lands. In addition, we have ongoing work related to health 
care programs that serve tribes and their members. Specifically, we are 
reviewing: (1) provider vacancies in IHS; (2) the use of advance 
appropriation authority for federal health programs and any 
applications to IHS; (3) how IHS compares with the Veterans Health 
Administration, Medicare, and Medicaid in terms of overall structure, 
user characteristics and service utilization, and funding levels; and 
(4) access to care for American Indian veterans. The results of these 
reviews will help inform future updates to the High Risk List.
    For this statement, we drew on findings from our reports issued 
from September 2011 through September 2017 and updated that work by 
reviewing agency documentation and interviewing agency officials. To 
conduct our previously issued work, on which this testimony draws, we 
reviewed relevant federal laws, regulations, and policies; reviewed 
agency documentation; and interviewed tribal, federal, and industry 
officials, among others. More detailed information on the scope and 
methodology of our work can be found in each of the reports cited in 
our High-Risk Series report. \4\ We conducted the work on which this 
statement is based in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \4\ GAO-17-317.
---------------------------------------------------------------------------
Background
    Since 1990, generally every 2 years at the start of a new Congress, 
we call attention to agencies and program areas that are high risk due 
to their vulnerability to mismanagement or that are most in need of 
transformation. \5\ Our high-risk program is intended to help inform 
the congressional oversight agenda and to improve government 
performance. Since 1990, a total of 61 different areas have appeared on 
the High-Risk List. Of these, 24 areas have been removed, and 2 areas 
have been consolidated. On average, the high-risk areas that were 
removed from the list had been on it for 9 years after they were 
initially added.
---------------------------------------------------------------------------
    \5\ In our High-Risk List, we also call attention to agencies and 
program areas that are high risk due to fraud, waste, and abuse, but we 
do not include such areas in this report.
---------------------------------------------------------------------------
    Our experience with the High-Risk List over the past 25 years has 
shown that the key elements needed to make progress in high-risk areas 
are top-level attention by the administration and agency leaders 
grounded in the five criteria for removing high-risk designations, 
which we reported on in November 2000. \6\ We found that when 
legislative and agency actions, including those in response to our 
recommendations, result in significant progress toward resolving a 
high-risk problem, we will remove the high-risk designation. However, 
implementing our recommendations alone will not result in the removal 
of the designation, because the condition that led to the 
recommendations is symptomatic of systemic management weaknesses. In 
cases in which we remove the high-risk designation, we continue to 
closely monitor the areas. If significant problems again arise, we will 
consider reapplying the high-risk designation. The five criteria for 
removing high-risk designations are:
---------------------------------------------------------------------------
    \6\ GAO, Determining Performance and Accountability Challenges and 
High Risks, GAO-01-159SP (Washington, D.C.: November 2001).

  <bullet> Leadership commitment. Demonstrated strong commitment and 
---------------------------------------------------------------------------
        top leadership support to address the risks.

  <bullet> Capacity. Agency has the capacity (i.e., people and other 
        resources) to resolve the risk(s).

  <bullet> Action plan. A corrective action plan that defines the root 
        causes, identifies effective solutions, and provides for 
        substantially completing corrective measures in the near term, 
        including steps necessary to implement solutions we 
        recommended.

  <bullet> Monitoring. A program has been instituted to monitor and 
        independently validate the effectiveness and sustainability of 
        corrective measures.

  <bullet> Demonstrated progress. Ability to demonstrate progress in 
        implementing corrective measures and in resolving the high-risk 
        area.

    These five criteria form a road map for efforts to improve and 
ultimately address high-risk issues. Addressing some of the criteria 
leads to progress, and satisfying all of the criteria is central to 
removal from the list. Figure 1 shows the five criteria for removal for 
a designated high-risk area and examples of agency actions leading to 
progress toward removal.

        Figure 1: Criteria Agencies Must Meet Before High-Risk 
        Designations Can Be Removed and Examples of Actions Leading to 
        Progress toward Removal
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    Importantly, the actions listed are not ``stand alone'' efforts 
taken in isolation of other actions to address high-risk issues. That 
is, actions taken under one criterion may be important to meeting other 
criteria as well. For example, top leadership can demonstrate its 
commitment by establishing a corrective action plan, including long-
term priorities and goals to address the high-risk issue and by using 
data to gauge progress--actions that are also vital to addressing the 
action plan and monitoring criteria. When an agency meets all five of 
these criteria, we can remove the agency from the High Risk List. We 
rate agency progress on the criteria using the following definitions:

  <bullet> Met. Actions have been taken that meet the criterion. There 
        are no significant actions that need to be taken to further 
        address this criterion.

  <bullet> Partially Met. Some, but not all, actions necessary to meet 
        the criterion have been taken.

  <bullet> Not Met. Few, if any, actions toward meeting the criterion 
        have been taken.

Agencies Made Some Progress Addressing the Management Weaknesses That 
        Led to the 2017 High Risk Designation
    Officials from Indian Affairs, BIE, BIA, and IHS expressed their 
commitment to addressing the issues that led to the high-risk 
designation for federal management of programs that serve tribes and 
their members. Since we last testified before this committee on 
September 13, 2017, we met with agency leaders and worked with each 
agency to identify actions the agencies took or plan to take to address 
the concerns that contributed to the designation. \7\ We determined 
that Indian Affairs, BIE, BIA, and IHS demonstrated varying levels of 
progress to partially meet most or all of the criteria for removing a 
high-risk designation. However, additional progress is needed for the 
agencies to fully address the criteria and related management 
weaknesses, particularly in the areas of leadership commitment and 
capacity.
---------------------------------------------------------------------------
    \7\ 7GAO, High Risk: Status of Prior Recommendations on Federal 
Management of Programs Serving Indian Tribes, GAO-17-790T (Washington, 
D.C.: Sept. 13, 2017).
---------------------------------------------------------------------------
Leadership Commitment
    To meet the leadership commitment criterion for removal of a high-
risk designation, an agency needs to have demonstrated strong 
commitment and top leadership support to address management weaknesses. 
The following examples show actions Indian Affairs, BIE, BIA, and IHS 
took to partially meet the leadership commitment criterion.

  <bullet> Education. Indian Affairs' leaders have demonstrated 
        commitment to addressing key weaknesses in the management of 
        BIE schools in several ways. For example, the BIE Director 
        formed an internal working group, convened meetings with other 
        senior leaders within Indian Affairs, and publicly stated that 
        his agency is committed to ensuring implementation of our 
        recommendations on Indian education. In addition, the BIE 
        Director and other Indian Affairs leaders and senior managers 
        have met with us frequently to discuss outstanding 
        recommendations, actions they have taken to address these 
        recommendations, and additional actions they could take. In 
        particular, the BIE Director met with us on nine occasions over 
        the past year to discuss our recommendations and instructed his 
        staff to provide us draft policies and procedures related to 
        our recommendations. However, it is important that Indian 
        Affairs leaders be able to sustain this level of commitment to 
        solving problems in Indian education. Since 2012, there have 
        been six Assistant-Secretaries of Indian Affairs and five BIE 
        Directors. There has also been leadership turnover in other key 
        offices responsible for implementing our recommendations on 
        Indian education. We have previously reported that leadership 
        turnover hampered Indian Affairs' efforts to make improvements 
        to Indian education. \8\ We believe that ensuring stable 
        leadership and a sustained focus on needed changes is vital to 
        the successful management of BIE schools.
---------------------------------------------------------------------------
    \8\ GAO, Indian Affairs: Better Management and Accountability 
Needed to Improve Indian Education, GAO-13-774 (Washington, D.C.: Sept 
24, 2013).

  <bullet> Energy. BIA officials demonstrated leadership commitment by, 
        for example, issuing a memorandum requiring all regions and 
        their agency offices \9\ to use a centralized data management 
        system to track requests for land title status reports. \10\ 
        Using this type of centralized approach for tracking such 
        requests may improve BIA's ability to provide needed oversight 
        of federal actions associated with energy development and 
        ensure documents needed for the development of energy resources 
        are provided in a timely manner. In addition, BIA officials 
        frequently met with us over the last 9 months to discuss the 
        bureau's progress in addressing recommendations related to 
        Indian energy. However, Indian Affairs does not have a 
        permanent Assistant Secretary. BIA does not have a permanent 
        Director, and BIA's Office of Trust Service--which has 
        significant responsibility over Indian energy activities--does 
        not have a permanent Director or Deputy Director. We have seen 
        turnover in these leadership positions as officials have been 
        brought in to temporarily fill these roles. As officials are 
        brought in temporarily, previously identified plans and 
        timeframes for completing some activities have changed, and BIA 
        has found itself starting over on the process to identify or 
        implement corrective actions.
---------------------------------------------------------------------------
    \9\ 9BIA, through its 12 regions, more than 80 agency offices, and 
headquarters office, generally has primary authority for managing 
Indian energy resources and the development process.
    \10\ A land title status report is required before leasing land and 
minerals held in trust or obtaining a right-of-way to traverse land 
held in trust.

  <bullet> Health Care. IHS officials demonstrated leadership 
        commitment by regularly meeting with us to discuss the agency's 
        progress in addressing our recommendations. IHS has continued 
        to implement its Quality Framework by acquiring a software 
        system to centralize the credentialing of clinical providers, 
        developing a patient experience of care survey, and developing 
        standards for limiting patient wait time. However, IHS still 
        does not have permanent leadership--including a Director of 
        IHS--which is necessary for the agency to demonstrate its 
        commitment to improvement. Since 2012, there have been five IHS 
        Acting Directors, and there has been leadership turnover in 
        other key positions, such as area directors. \11\ For example, 
        in January 2017 we reported that officials from four of the 
        nine area offices in our review reported that they had at least 
        three area directors over the prior 5 years. \12\ We also 
        reported that inconsistent area office and health care facility 
        leadership is detrimental to the oversight of facility 
---------------------------------------------------------------------------
        operations and the supervision of personnel.

    \11\ IHS oversees its health care facilities through a 
decentralized system of area offices, which are led by area directors.
    \12\ GAO, Indian Health Service: Actions Needed to Improve 
Oversight of Quality of Care, GAO-17-181 (Washington, D.C.: Jan. 9, 
2017).
---------------------------------------------------------------------------
    To fully meet the leadership commitment criterion, all agencies 
will need, among other things, stable, permanent leadership that has 
assigned the tasks needed to address weaknesses and that holds those 
assigned accountable for progress. For a timeline of senior leadership 
turnover in Indian Affairs, BIE, BIA, and IHS from 2012 through 2018, 
see Figure 2.

        Figure 2: Senior Leadership in Agencies Responsible for 
        Education, Energy, and Health Care Programs Serving Tribes
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Capacity
    To meet the capacity criterion, an agency needs to demonstrate that 
it has the capacity (i.e., people and other resources) to resolve its 
management weaknesses. Indian Affairs, BIE, BIA, and IHS each made some 
progress in identifying capacity and resources to implement some of our 
recommendations, but BIA and IHS officials reported to us that the 
agencies do not have the people and resources needed to fully implement 
other recommendations. The following examples show actions Indian 
Affairs, BIE, BIA, and IHS took to partially meet the capacity 
criterion.

  <bullet> Education. BIE and other Indian Affairs offices that support 
        BIE schools have made some progress in demonstrating capacity 
        to address risks to Indian education. For example, BIE hired a 
        full-time program analyst to coordinate its working group and 
        help oversee the implementation of our recommendations on 
        Indian education. This official has played a key role in 
        coordinating the agency's implementation efforts and has 
        provided us with regular updates on the status of these 
        efforts. BIE has also conducted hiring in various offices in 
        recent years as part of a 2014 Secretarial Order to reorganize 
        the bureau. \13\ For example, it has hired school safety 
        officers and personnel in offices supporting the oversight of 
        school spending. However, about 50 percent of all BIE positions 
        have not been filled, including new positions that have been 
        added as a result of the agency's restructuring, according to a 
        BIE official. Moreover, agency officials told us that vacancies 
        remain in several key positions, including the Chief Academic 
        Officer and the Associate Deputy Director for Bureau Operated 
        Schools. Furthermore, BIE and other Indian Affairs offices that 
        support BIE schools have not developed a workforce plan to 
        address staffing and training gaps with key staff, which we 
        previously recommended. Such a plan is important to allow BIE 
        and other Indian Affairs offices to better understand workforce 
        needs and leverage resources to meet them. BIE officials told 
        us they have held workforce planning sessions and anticipate 
        completing work on our recommendation to develop a workforce 
        plan at the end of 2018.
---------------------------------------------------------------------------
    \13\ 13U.S. Department of the Interior, Secretarial Order 3334: 
Restructuring the Bureau of Indian Education. (Washington, D.C.: June 
16, 2014).

  <bullet> Energy. In November 2016, we recommended that BIA establish 
        a documented process for assessing the workforce at its agency 
        offices. \14\ BIA has taken a number of actions, such as 
        conducting an internal survey to identify general workforce 
        needs related to oil and gas development. This survey 
        information supported staffing decisions for the recently 
        created Indian Energy Service Center. However, BIA officials 
        told us the bureau does not have the staff or resources to 
        implement a comprehensive workforce planning system that would 
        be needed to ensure it has staff in place to meet its 
        organizational needs.
---------------------------------------------------------------------------
    \14\ 14GAO, Indian Energy Development: Additional Actions by 
Federal Agencies Needed to Overcome Factors Hindering Development, GAO-
17-43 (Washington, D.C.: Nov. 17, 2016).

  <bullet> Health Care. IHS has made some progress in demonstrating it 
        has the capacity and resources necessary to address the program 
        risks we identified in our reports. For example, IHS officials 
        stated that the agency is expanding the role of internal audit 
        staff within its enterprise risk management program to augment 
        internal audits and complement audits by the HHS Inspector 
        General and GAO. However, according to IHS, there are still 
        vacancies in several key positions, including the Director of 
        the Office of Resource Access and Partnerships, and the Office 
---------------------------------------------------------------------------
        of Finance and Accounting.

    To fully meet the capacity criterion, all of the agencies need to 
assess tradeoffs between these and other administration priorities in 
terms of people and resources, and the agencies should provide to 
decision makers key information on resources needed to address 
management weaknesses.
Action Plan
    To meet the action plan criterion, an agency needs to have a 
corrective action plan that defines the root causes, identifies 
effective solutions, and provides for substantially completing 
corrective measures in the near term, including steps necessary to 
implement the solutions we recommended. Indian Affairs, BIE, BIA, and 
IHS have shown progress in identifying actions to address many of our 
recommendations-leading us to believe they can partially meet the 
action plan criterion before our next update of the High Risk List. For 
example:

  <bullet> Education. BIE has taken several steps to develop action 
        plans to address management weaknesses. For example, BIE 
        implemented a new policy for overseeing BIE school spending, 
        including developing written procedures and risk criteria for 
        monitoring school expenditures. BIE also developed a strategic 
        plan, which we recommended in September 2013. \15\ The plan 
        provides the agency with goals and strategies for improving its 
        management and oversight of Indian education, and establishes 
        detailed actions and milestones for the implementation. BIE has 
        notified us that it has completed the plan and expects to 
        publish it on June 11, 2018, and will begin implementation 
        starting in July 2018. We will review the strategic plan once 
        it has been published. In addition, Indian Affairs' Office of 
        Facilities, Property & Safety Management has developed and 
        implemented revised comprehensive guidelines that addressed 
        several of our findings on weaknesses with BIE school safety 
        identified in our March 2016 report. \16\ However, Indian 
        Affairs has not provided us with evidence that it has developed 
        and put in place action plans on other important issues, such 
        as a comprehensive, long-term capital asset plan to inform its 
        allocation of school construction funds, which we recommended 
        in May 2017. \17\
---------------------------------------------------------------------------
    \15\ GAO, Indian Affairs: Better Management and Accountability 
Needed to Improve Indian Education, GAO-13-774 (Washington, D.C.: Sept. 
24, 2013).
    \16\ GAO, Indian Affairs: Key Actions Needed to Ensure Safety and 
Health at Indian School Facilities, GAO-16-313 (Washington, D.C.: Mar. 
10, 2016).
    \17\ GAO, Indian Affairs: Actions Needed to Better Manage Indian 
School Construction Projects, GAO-17-447 (Washington, D.C.: May 24, 
2017).

  <bullet> Energy. BIA officials met with us several times over the 
        past few months to discuss planned actions for addressing 
        management weaknesses related to Indian energy resources, and 
        they identified actions they have taken to help implement some 
        of our recommendations. For instance, BIA officials told us 
        they have proposed several modifications to the bureau's land 
        records data management system that will enable increased 
        tracking and monitoring of key documents that BIA must review 
        prior to the development of Indian energy resources. BIA 
        officials we met with have demonstrated an understanding that 
        addressing long-standing management weaknesses is not 
        accomplished through a single action but through comprehensive 
        planning and continued movement toward a goal. However, the 
        agency does not have a comprehensive plan to address the root 
---------------------------------------------------------------------------
        causes of all identified management shortcomings.

  <bullet> Health Care. Senior leaders in IHS have prioritized 
        addressing our recommendations by meeting with us frequently 
        and implementing four recommendations we highlighted in our 
        February 2017 update to the High Risk List. \18\ IHS 
        incorporated our recommendations into its risk management work 
        plan starting in 2017, and according to IHS officials, they 
        will annually review the effectiveness of the agency's internal 
        controls, and where controls are deemed insufficient, take 
        actions to strengthen them. IHS officials we met with have 
        demonstrated an understanding that addressing long-standing 
        management weaknesses requires that they develop a corrective 
        action plan that defines root causes, identifies solutions, and 
        provides for substantially completing corrective measures. 
        However, agency officials have not yet developed a corrective 
        action plan.
---------------------------------------------------------------------------
    \18\ GAO-17-317.

    To fully meet the action plan criterion, a comprehensive plan that 
identifies actions to address the root causes of its management 
shortcomings would have to come from top leadership with a commitment 
to provide sufficient capacity and resources to take the necessary 
actions to address management shortcomings and risks.
Monitoring
    To meet the monitoring criterion, an agency needs to demonstrate 
that a program has been instituted to monitor and independently 
validate the effectiveness and sustainability of corrective measures. 
For example, agencies can demonstrate that they have a systematic way 
to track performance measures and progress against goals identified in 
their action plans. We have been working with the agencies to help 
clarify the need to establish a framework for monitoring progress that 
includes goals and performance measures to track their efforts and 
ultimately verify the effectiveness of their efforts. BIA and IHS made 
progress in holding frequent review meetings to assess the status of 
implementing our recommendations but have not yet taken needed steps to 
monitor their progress in addressing the root causes of their 
management weaknesses. In addition, Indian Affairs has made some 
progress in meeting the monitoring criterion on Indian education. For 
example, the agency has implemented a plan to monitor the effectiveness 
of corrective measures to address school safety program weaknesses. 
However, the agency has not yet demonstrated that it is monitoring 
other areas, such as showing that it is using safety program outcomes 
to evaluate and manage the performance of regional safety inspectors. 
To fully meet the monitoring criterion, the agencies need to set up 
goals and performance measures as they develop action plans and take 
further actions to monitor the effectiveness of actions to address root 
causes of identified management shortcomings.
Demonstrated Progress
    To meet the demonstrated progress criterion, an agency needs to 
demonstrate progress in implementing corrective measures and in 
resolving the high-risk area. We made 50 recommendations to improve 
management weaknesses at Indian Affairs, BIE, BIA, and IHS, of which 34 
are still open. Since our testimony in September 2017, we found that 
Indian Affairs has made significant progress in implementing corrective 
actions in education as demonstrated by our closure of nearly a third 
of our recommendations directed to Indian Affairs related to education 
programs. \19\ We found that BIA and IHS also made some progress in 
implementing corrective actions related to the management of energy 
resources and healthcare programs. Specifically, since our testimony in 
September 2017, BIA took actions resulting in the implementation of 2 
of 14 recommendations, and IHS took actions that resulted in the 
implementation of four recommendations. The following examples show 
actions Indian Affairs, BIA, and IHS took to partially meet the 
demonstrated progress criterion.
---------------------------------------------------------------------------
    \19\ GAO-17-790T.

  <bullet> Education. As of early June 2018, Indian Affairs had fully 
        addressed 8 of the 23 outstanding education recommendations we 
        identified in our September 2017 testimony, and we have closed 
        them. \20\ BIE implemented half of the closed recommendations, 
        including 2 on oversight of BIE school spending identified as 
        high priority in a March 2018 letter from the Comptroller 
        General to the Secretary of the Interior. The rest of the 
        recommendations we closed were implemented by personnel in 
        Indian Affairs' Office of Facilities, Property & Safety 
        Management and related to oversight of school safety and 
        construction. Overall, Indian Affairs' efforts since we issued 
        our High Risk List update in February 2017 represent a 
        significant increase in activity implementing our 
        recommendations. \21\ Substantial work, however, remains to 
        address our outstanding recommendations in several key areas, 
        such as in accountability for BIE school safety and school 
        construction projects. For example, BIA has reported taking 
        some actions to address recommendations in our May 2017 report 
        on improving accountability of its safety employees who inspect 
        BIE schools. \22\ However, it has not provided us with 
        documentation of these actions.
---------------------------------------------------------------------------
    \20\ GAO-17-790T.
    \21\ GAO-17-317.
    \22\ GAO, Indian Affairs: Further Actions Needed to Improve 
Oversight and Accountability for School Safety Inspections, GAO-17-421 
(Washington, D.C.: May 24, 2017).

  <bullet> Energy. In June 2015, we recommended that BIA take steps to 
        improve its geographic information system (GIS) capabilities to 
        ensure it can verify ownership in a timely manner. \23\ Since 
        our last update in September 2017, BIA has made significant 
        progress in enhancing its GIS capabilities by integrating map-
        viewing technology and capabilities into its land management 
        data system. In addition, we recommended that BIA take steps to 
        identify cadastral survey needs. \24\ BIA's enhanced map-
        viewing technology also allows the bureau to identify land 
        boundary discrepancies, which can then be researched and 
        corrected. Further, BIA identified unmet survey needs that were 
        contained within the defunct cadastral request system and 
        developed a new mechanism for its regions and agency offices to 
        make survey requests. We believe these actions show significant 
        progress in addressing management weaknesses associated with 
        data limitations and outdated technology.
---------------------------------------------------------------------------
    \23\ GAO, Indian Energy Development: Poor Management by BIA Has 
Hindered Energy Development on Indian Lands, GAO-15-502 (Washington, 
D.C.: June 15, 2015).
    \24\ A cadastral survey is, in effect, the public record of the 
extent, value, and ownership of land.

  <bullet> Health Care. In April 2013, we recommended that IHS monitor 
        patient access to physician and other nonhospital care to 
        assess how capped payment rates may benefit or impede the 
        availability of care. \25\ In response to our recommendation, 
        IHS developed an online tracking tool that enables the agency 
        to document providers that refuse to contract for lower rates. 
        In October 2017, IHS officials met in person with us and 
        provided a demonstration of the tracking tool.
---------------------------------------------------------------------------
    \25\ GAO, Indian Health Service: Capping Payment Rates for 
Nonhospital Services Could Save Millions of Dollars for Contract Health 
Services, GAO-13-272 (Washington, D.C.: April 11, 2013).

    To fully meet the demonstrating progress criterion, agencies need 
to continue taking actions to ensure sustained progress and show that 
management shortcomings are being effectively managed and root causes 
are being addressed.
    In conclusion, we see some progress in all of the criteria, 
including leadership commitment, at all agencies, especially related to 
education programs. However, permanent leadership that provides 
continuing oversight and accountability is needed. We also see varying 
levels of progress at all of the agencies in understanding what they 
need to do to be removed from the High Risk List by identifying steps 
that can be incorporated into corrective action plans to address most 
recommendations. We look forward to working with the agencies to track 
their progress in implementing a framework for monitoring and 
validating the effectiveness of planned corrective actions. In 
addition, the agencies all have made progress in implementing some key 
recommendations, for demonstrated progress in resolving the high-risk 
area. Perhaps the biggest challenge for the agencies will be achieving 
the capacity and identifying the resources required to address the 
deficiencies in their programs and activities. This challenge cannot be 
overcome by the agencies without a commitment from the administration 
to prioritize fixing management weaknesses in programs and activities 
that serve tribes and their members.
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
this completes my prepared statement. I would be pleased to respond to 
any questions that you may have.

    The Chairman. Mr. Dearman.

        STATEMENT OF TONY DEARMAN, DIRECTOR, BUREAU OF 
INDIAN EDUCATION, U.S. DEPARTMENT OF THE INTERIOR; ACCOMPANIED 
          BY MELISSA EMARY ARONSON, EDUCATION DIRECTOR

    Mr. Dearman. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    I am Tony Dearman, Director of the Bureau of Indian 
Education. On behalf of the BIE and the Department, thank you 
for the invitation to appear again.
    In February 2017, GAO released its High Risk Report 
designating BIE as a high risk agency. As in past hearings, I 
acknowledge that BIE neglected GAO reports for too long. Work 
remains but I am glad to update this Committee on significant 
progress regarding BIE's outstanding recommendations.
    As of today, GAO has formally closed eight of our 
outstanding recommendations. We expect to submit for closure in 
the coming days GAO Report 13-774, Recommendation No. 4, a 
strategic plan and anticipate implementation of the other four 
outstanding recommendations by year's end. This puts BIE in a 
good position to address the challenge provided by members of 
the Committee at prior hearings
    Regarding GAO Report 13-774, BIE implemented Recommendation 
Nos. 1, 2 and 3, development of a decision-making procedure; 
communications strategy; and increased collaboration with the 
Department of Education.
    With regard to Recommendation No. 4, over the past year, 
all levels of BIE contributed to the creation of a draft 
strategic plan. We then held three listening sessions and five 
regional tribal consultations in late 2017.
    After incorporation of relevant consultation comments, BIE 
developed its formal strategic plan and consultation report to 
provide transparency regarding inclusion of tribal comments. I 
am happy to report that last week, departmental leadership 
completed its review and approved the strategic plan. Upon 
implementation and through our communications strategy, we 
anticipate GAO will close our ninth outstanding recommendation 
in the coming weeks.
    The Department previously considered Recommendation No. 5, 
revision of a strategic workforce plan closed. However, GAO did 
not concur. After review of the previous work, BIE and the 
Department relisted the recommendation as open.
    Importantly, we prioritized the implementation of the 
strategic plan before the workforce plan. It made little sense 
to implement the formal workforce plan prior to executing a 
strategic plan that set the direction of the organization.
    To ensure our employees and stakeholders benefit from a 
high quality workforce plan, we continue to work with 
comprehensive and content-centered experts funded through the 
Department of Education. We are now on target to address this 
recommendation by year's end, which will address both GAO 
Report 13-774, Recommendation No. 5 and GAO Report 15-121, 
Recommendation No. 1.
    Since the last hearing, we also developed and implemented a 
comprehensive fiscal monitoring policy and procedure. This 
coordinates monitoring efforts and improves technical 
assistance to schools. As of May, GAO formally closed 
Recommendation Nos. 2, 3 and 4 which are addressed in this 
comprehensive policy.
    Regarding GAO Report 16-313, Indian Affairs, in 
coordination with BIE, successfully implemented Recommendation 
Nos. 2 and 4 in recent months. As of June 1, GAO closed 
Recommendation No. 2 regarding safety guidance for school 
inspections.
    As part of this work, Indian Affairs revised its inspection 
guidance and tools to ensure they are comprehensive and up-to-
date. Further, GAO closed Recommendation No. 4 in early 2018 
regarding the requirement of school safety committees at the 
local level. Two recommendations in GAO Report 16-313 remain 
open, Recommendation No. 1 regarding mitigation of challenges 
for school inspection and Recommendation No. 3 concerning 
increasing school capacity to address safety issues. Indian 
Affairs is coordinating across bureaus to address these 
remaining recommendations as quickly as possible.
    Through its recommendations, GAO provided a road map to 
improve service delivery to our schools. BIE, as well as Indian 
Affairs and the Department, took Congress' charge to address 
these as quickly and effectively as possible. Implementing 
GAO's guidance will work to make us better at addressing the 
needs of our students, students like my daughter who attend a 
BIE school.
    Thank you for your time. I would be honored to answer any 
questions you may have.
    [The prepared statement of Mr. Dearman follows:]

    Prepared Statement of Tony Dearman, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and Members of 
the Committee. Thank you for the invitation to appear again on behalf 
of the Bureau of Indian Education (BIE) to discuss our ongoing work to 
address the high-risk designation from the Government Accountability 
Office (GAO) in the High Risk Report (GAO-17-317 High Risk Series).
    As highlighted in the GAO reports, much work remains, but I am glad 
to update this Committee on progress made regarding the outstanding 
recommendations since I last testified in September. GAO has conveyed 
that addressing the outstanding recommendations will help them work 
toward removing BIE from the high-risk designation. While the BIE is 
working to address all GAO recommendations, including those in 
subsequent reports issued in 2017, this testimony will provide an 
update on progress regarding outstanding GAO recommendations in 
relation to the high-risk designation--now having closed seven 
recommendations. BIE appreciates GAO's continued support and assistance 
in improving BIE services to our students. The BIE is now well 
positioned to address all outstanding recommendations by year's end--a 
challenge provided by Members of this Committee at the last hearing.
    As I previously testified, the BIE team views the GAO's reports as 
a constructive tool to improve our agency and help the students we are 
committed to serve. As such, I will update you on headway made in the 
following areas:

    1. GAO High Risk Status for BIE
    2. GAO Recommendations
    3. GAO Recommendations Status & BIE Next Steps

GAO High Risk Status for BIE
    In February 2017, the GAO released its High Risk Report (GAO-17-317 
High Risk Series) designating BIE as a high-risk agency. The GAO 
highlighted the following persistent weaknesses noted in previous 
reports that inhibit the agency from efficiently executing its mission 
to serve Indian students:

  <bullet> Indian Affairs' (IA) oversight of school safety and 
        construction, as well as how BIE monitors the way schools use 
        Interior funds;

  <bullet> The impact of limited workforce planning in several key 
        areas related to BIE schools;

  <bullet> The effects of aging BIE school facilities and equipment and 
        how such facilities contribute to degraded and unsafe 
        conditions for students and staff; and

  <bullet> How the lack of internal controls and other weaknesses 
        hinder IA's ability to collect complete and accurate 
        information on the physical conditions of BIE schools.

    In three separate reports dating back to 2013, the GAO provided 
thirteen recommendations to improve IA's management of BIE schools. BIE 
has now closed seven GAO recommendations. BIE has additionally made 
significant progress in addressing its remaining outstanding 
recommendations.
    As Director, I am committed to addressing these outstanding items. 
To that end, I am working with our senior leadership team within BIE as 
well as with IA, the Secretary's Office, and our colleagues at GAO to 
ensure that BIE comprehensively addresses each outstanding 
recommendation as expeditiously and effectively as possible. Throughout 
the past year, the BIE, through the support of the Department of the 
Interior (Department), regularly and directly communicated with GAO, 
which enhanced BIE's ability to address outstanding recommendations. 
Through in-person meetings and teleconferences, GAO provided BIE 
comments and suggestions for effectively closing recommendations in a 
timely manner.
    GAO recommendations are a roadmap for BIE to establish and maintain 
comprehensive internal policies and procedures that support service 
delivery, ensure accountability, and provide organizational stability. 
We appreciate the assistance and collaboration offered by GAO and look 
forward to our continued partnership.
GAO Recommendations: Status & BIE Next Steps
    In the past few years, BIE planned, consulted on, designed, and 
implemented a complex, multifaceted, bureau-wide reorganization. In 
February 2016, the Department directed BIE to move forward with Phase I 
of its reorganization, with the agency committing considerable time, 
energy, and resources to carry out the directive. Simultaneously, 
considerable turnover within BIE senior leadership reduced capacity and 
focused BIE's attention on day-to-day services rather than addressing 
critical, long-term organizational improvement strategies highlighted 
in the GAO reports. Since becoming Director, I directed BIE to 
prioritize resources and critical personnel to refocus our efforts in 
addressing the longstanding, systemic issues outlined in GAO reports 
that will ultimately improve our ability to serve Indian students.
    In November 2016, the BIE filled several key positions tasked with 
serving on an internal working group focused on evaluating all 
outstanding GAO recommendations as well as BIE's past GAO closure 
submissions. The team completed its analysis in early 2017 and reported 
its findings and recommendations to BIE leadership in mid-March. Based 
on the information received, BIE leadership was not satisfied with the 
quality and timeliness of the Bureau's response in addressing GAO's 
outstanding recommendations. Since then, BIE consistently worked to 
complete the actions recommended to improve service delivery and 
accountability.
    GAO-13-774--INDIAN AFFAIRS: Better Management and Accountability 
Needed to Improve Indian Education (September 2013).
    GAO made five recommendations:

        I.) Develop and implement decisionmaking procedures, which are 
        documented in management directives, administrative policies, 
        or operating manuals;

        II.) Develop a communication strategy;

        III.) Appoint permanent members to the BIE-Education committee 
        and meet on a quarterly basis;

        IV.) Draft and implement a strategic plan with stakeholder 
        input; and

        V.) Revise the BIE strategic workforce plan.

    BIE completed implementation of recommendations one, two and three, 
which includes development of a decisionmaking procedure, 
communications strategy and increased collaboration with the Department 
of Education (ED). The Department previously considered recommendation 
five--revision of a strategic workforce plan--closed. However, GAO did 
not concur. After reviewing the previous work submitted by BIE 
regarding recommendation five, and after closely collaborating with GAO 
regarding the work product, BIE and the Department relisted the 
recommendation as open. The Department will continue to work with GAO 
until recommendation five is fully implemented. Additionally, BIE will 
assess the effectiveness of its long-term implementation of GAO's 
closed recommendations in an effort to continually improve BIE 
operations. BIE is currently working to implement recommendations four 
and five, which are to develop a strategic plan, as well as a 
comprehensive workforce plan. BIE plans to implement the remaining 
recommendations contained in GAO-13-774 by the end of 2018.
    Recommendation IV--BIE, working with leadership within IA and 
pertinent stakeholders, reviewed the strategic plan submitted to GAO in 
September 2016 and determined that the quality of work as 
unsatisfactory, both for the purposes of closing recommendation four as 
well as for working as a functional tool intended to guide the 
organization in achieving its mission. At the close of this review, BIE 
immediately began the process of planning and drafting a revised 
strategic plan.
    On March 8, 2017, BIE conducted a senior leader strategic planning 
exercise to initiate work. On April 11, 2017, BIE held a follow-up 
strategic planning session, convening local, regional, and central 
office personnel to determine paths forward. By the end of April 2017, 
BIE began revising its mission and vision statement and identified 
draft goals. On June 14, 2017 and July 18-20, 2017, BIE held additional 
strategic planning sessions to identify strategies aligned to goals and 
established a communications plan for sharing the Draft Strategic Plan 
Proposal with internal and external stakeholders to solicit feedback as 
well as developing a timeframe for formal consultation with Indian 
tribes. BIE then held additional organization-wide planning meetings on 
August 29-30, 2017 and September 26-28, 2017.
    Following these internal planning sessions, the BIE produced a 
Draft Strategic Plan Proposal for review by Tribes and key 
stakeholders. On October 17, 2017, early in the planning process, BIE 
initiated a series of meaningful and substantive Tribal consultation 
and listening sessions regarding the Draft Strategic Plan Proposal. The 
consultation sessions achieved the BIE's goal to engage and work with 
Tribes, school boards, and other stakeholders to obtain input for 
meeting the needs of BIE students and Indian Country. Upon conclusion 
of five regional Tribal consultation sessions and three listening 
sessions, the BIE began a substantive review and analysis of all 
feedback and made significant edits and changes in light of the 
contribution of its Tribal partners. In April 2018, the BIE submitted 
its final Strategic Direction to Department leadership for formal 
review and approval. Upon receiving approval, the BIE will publish and 
implement the Strategic Direction.
    Recommendation V--BIE purposefully delayed implementation of 
recommendation five until finalizing its Strategic Direction. The BIE 
will create and implement the workforce plan based on the goals 
outlined in the Strategic Direction. To ensure that implementation is 
effective, the BIE is working with external subject-matter expert 
organizations, such as the WestED comprehensive center, the Academic 
Development Institute, and the Building State Capacity and Productivity 
Center (BSCPC) to establish work strands and monitoring to ensure 
increased accountability in service delivery. These organizations will 
collaborate with BIE to provide technical expertise and best practices 
in developing an effective, long-term action plan for implementing a 
measurement system to track progress once implementation of the 
Strategic Direction begins. BIE's goal is to complete the strategic 
workforce plan by the close of 2018.
    GAO-15-121--INDIAN AFFAIRS: Bureau of Indian Education Needs to 
Improve Oversight of School Spending (November 2014).
    GAO made four recommendations:

        I.) Develop a comprehensive workforce plan;

        II.) Implement an information sharing procedure;

        III.) Draft a written procedure for making major program 
        expenditures; and

        IV.) Create a risk-based approach in managing BIE school 
        expenditures.

    BIE continues to implement GAO's four recommendations contained in 
GAO-15-121. As of May, the BIE developed and implemented a 
comprehensive fiscal monitoring policy and procedure, which coordinates 
efforts and technical assistance across the Bureau. As a result, GAO 
permanently closed recommendations two, three, and four. The BIE is now 
focusing its efforts on completing a comprehensive workforce plan, 
which addresses recommendation one as well as recommendation five in 
GAO-13-774--implementation of a strategic workforce plan.
    Recommendation I--During the early stages of the current BIE 
reform, IA contracted a workforce study. However, following BIE's 
meetings with GAO on June 17, 2017 and August 16, 2017, GAO provided 
clarification regarding expectations by identifying skills gap, 
prioritization of vacancies, and the need for plans contingent on 
varying outcomes, such as available funding and hiring constraints. BIE 
plans to revisit the work completed by IA in the prior study and 
reexamine its workforce planning efforts in light of GAO's feedback. 
Additionally, during the strategic planning process the BIE held two 
initial workforce-planning exercises to begin planning. BIE's goal is 
to complete the comprehensive workforce plan by the close of 2018.
    GAO-16-313--INDIAN AFFAIRS: Key Actions Needed to Ensure Safety and 
Health at Indian School Facilities (March 2016)
    GAO made recommendations:

        I.) Ensure that all BIE schools are inspected as well as 
        implement a plan to mitigate challenges;

        II.) Prioritize inspections at schools where facility 
        conditions may pose a greater risk to students;

        III.) Develop a plan to build schools' capacity to promptly 
        address safety and health problems with facilities and improve 
        the expertise of facility staff to maintain and repair school 
        buildings; and

        IV.) Consistently monitor whether schools have established 
        required safety committees.

    BIE successfully implemented recommendation two and four, and GAO 
permanently closed the recommendations in early 2018. BIE and its IA 
partners continue work implementing GAO's two remaining recommendations 
contained in GAO-16-313.
    Recommendations I and III--BIE is collaborating with partners from 
across IA to address its remaining safety-related GAO recommendations. 
The BIE is committed to working with IA, the Secretary's office, and 
our colleagues at the GAO to ensure that the BIE systematically and 
comprehensively addresses each recommendation for improving services 
and safety at BIE schools. Specifically, through an IA collaborative 
working group to address outstanding safety issues, BIE and IA 
administered safe school audits with a 100 percent completion rate in 
both 2016 and 2017. We are on track to complete 100 percent of 
inspections in 2018 and are monitoring whether schools have established 
required safety committees.
    We are also working to ensure that employee performance standards 
regarding inspections are consistently incorporated into the appraisal 
plans of personnel with safety program responsibilities. Personnel are 
on schedule to formally require safety inspectors to document when 
inspection reports are sent to schools as well as establish a process 
to routinely monitor the timeliness of such reports. Further, BIE staff 
and its IA partners drafted and recently implemented the ``Indian 
Affairs Safety Health and Accessibility Inspection/Evaluation 
Guidelines'', which will comprehensively address many of GAO's safety-
related recommendations outlined in subsequent GAO reports released in 
2017.
Conclusion
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
thank you for the opportunity to present testimony today and provide 
the Committee an update regarding our work with GAO. Much work remains, 
but BIE is excited about our recent progress and is committed to 
addressing all GAO recommendations in order to achieve sustained 
improvement for our students. Thank you for your time, and I would be 
honored to answer any questions you may have.

    The Chairman. Mr. LaCounte.

        STATEMENT OF DARRYL LACOUNTE, ACTING DIRECTOR, 
       BUREAU OF INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. LaCounte. Thank you.
    Good afternoon, Chairman Hoeven, Vice Chairman Udall and 
members of the Committee.
    My name is Darryl LaCounte. I am the Acting Director for 
the Bureau of Indian Affairs at the Department of the Interior. 
I transitioned into this role from the Acting Deputy Director 
for Trust Services. My permanent role is Regional Director for 
the Rocky Mountain Region. As the Regional Director, I am 
responsible for all programs, services and costs provided to 
uphold the Trust with the tribes and individual Indians in the 
region.
    Prior to Federal service, I worked extensively in 
agriculture in eastern Montana and western North Dakota and 
also in the oil and gas exploration field in Montana, North 
Dakota, Wyoming, Colorado and Nebraska.
    Thank you for the opportunity to present an update on 
behalf of the Department regarding the Indian Affairs role in 
development of Indian energy and our continued commitment to 
address the high risk designation in the Government 
Accountability Office High Risk Report, 17-317, High Risk 
Series.
    Since February of this year, I and my staff have worked 
diligently to reestablish and improve communication with GAO. I 
feel we have been very successful in developing a productive 
relationship.
    The Department is committed to working in collaboration to 
assure that we meet the five criteria GAO uses for determining 
whether to remove a high risk designation, leadership 
commitment, capacity, action plan, monitoring and demonstrated 
progress. We have made progress in these areas.
    The Department understands that removal from the High Risk 
List is not directly linked to implementation of the 
recommendations. However, our progress in implementing these 
recommendations clearly demonstrates a commitment to widespread 
reform.
    As the Committee is aware, the Department agreed with GAO's 
recommendations and we continues to address the recommendations 
by implementing widespread reform to help foster energy 
independence among tribes who are interested in developing 
their resources.
    As the High Risk Report notes, GAO made 14 recommendations 
to the Bureau of Indian Affairs via three reports. We are 
pleased to report that we have made progress in all 14 
recommendations.
    We are pleased to update the Committee that Recommendation 
Nos. 1 and 5 have been closed. Since coming onboard as the 
Acting Director a month and a half ago, I have prioritized and 
aggressively closed out as many of the GAO recommendations as 
possible.
    There are some I believe we can close by the end of 
September 2018 such as Recommendation Nos. 2, 3, 4 and 6. There 
are some GAO recommendations that have major components in the 
activity. Those recommendations are Nos. 7, 8, 9, 13 and 14. 
Our goal is to close out these five recommendations by the end 
of this year.
    As for the remaining GAO recommendations, Nos. 10, 11 and 
12, we have made significant progress in these and are 
optimistic we will be able to close out these recommendations 
by the end of the calendar year as well.
    Again, thank you for the opportunity to provide an update 
on our progress in addressing the GAO recommendations from past 
reports and the GAO High Risk Report, 17-317, High Risk Series.
    I would be glad to answer any questions the Committee may 
have.
    [The prepared statement of Mr. LaCounte follows:]

   Prepared Statement of Darryl LaCounte, Acting Director, Bureau of 
            Indian Affairs, U.S. Department of the Interior
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
my name is Darryl LaCounte and I am the Acting Director for the Bureau 
of Indian Affairs at the Department of the Interior (Department). Thank 
you for the opportunity to present an update on behalf of the 
Department regarding Indian Affairs' role in the development of Indian 
energy and our continued commitment to address the high risk 
designation in the Government Accountability Office (GAO) High Risk 
Report (GAO-17-317 High Risk Series).
    As the Committee is aware, the Department agreed with GAO's 
recommendations and we continue to address the recommendations by 
implementing widespread reform to help foster energy independence among 
Tribes who are interested in developing their resources. As the High 
Risk report notes, GAO made fourteen recommendations to the Bureau of 
Indian Affairs (BIA), via three reports. We are pleased to report that 
we've made progress on a number of the recommendations, some have been 
closed, and we plan to submit closure packages for other 
recommendations in the near future.
GAO 15-502
    Recommendation 1: To ensure it can verify ownership in a timely 
manner and identify resources available for development, BIA should 
take steps to complete its GIS mapping module in TAAMS.

    We are pleased to announce that the Indian Affairs GIS Map Viewer 
has been deployed, as of August 31, 2017. As of February 22, 2018, BIA 
addressed the requirements for this Recommendation, and demonstrated 
the system with ample evidence to close this recommendation.

    Recommendation 2: To ensure it can verify ownership in a timely 
manner and identify resources available for development, BIA should 
work with BLM to identify cadastral survey needs.

    The BIA and the BLM, in a coordinated and focused effort, prepared 
a Reimbursable Service Agreement between the two agencies to identify 
and deliver the much needed survey-related products and services. We 
are continuing to evaluate the cadastral survey requests that have been 
approved for funding for completion by BLM.
    BLM and BIA reviewed and established a database that contains the 
information necessary to identify ownership. An intake mechanism was 
developed by the Indian Energy Service Center for making new survey 
requests. The BIA drafted instructions and will provide guidance on how 
to make requests and how to track the progress of incoming requests 
from BIA Regional offices. Implementation and full deployment of the 
cadastral survey process is scheduled no later than September, 2018.

    Recommendation 3: To improve the efficiency and transparency of its 
review process, BIA should develop a documented process to track its 
review and response times.

    Previously we stated that the BIA was in the process of evaluating 
and reviewing the approval process and information stored in TAAMS in 
order to improve efficiencies and timeliness in processing workloads. 
Since then, the BIA subject matter experts provided modifications to 
enhance TAAMS to incorporate a tracking mechanism for proposed mineral 
related transactions. A Change Request for the system was presented to 
the TAAMS Change Management Board in January, 2018. In February, the 
Board vetted and approved the system enhancements.
    To support and demonstrate BIA's commitment to enhance and 
streamline business processes, a National Policy Memorandum (NPM-TRUS-
34-A1) has been issued regarding the utilization of a Tracking sheet 
for Communitization Agreements in addition to Rights-of-Way. Once 
developed, this tracking system will include permanent tracking in 
TAAMS by September 30, 2018.

    Recommendation 4: To improve the efficiency and transparency of its 
review process, BIA should enhance data collection efforts to ensure it 
has data needed to track its review and response times.

    Data tracking is under development for TAAMS enhancements to 
capture review and response times. The enhancements will be reviewed by 
regional offices with active oil and gas transactions to improve 
business transactions.
    The Fluid Minerals Handbook updates will include the new process, 
timeframes, and reporting requirements. Our target completion date is 
September 30, 2018.

    Recommendation 5: Provide additional energy development-specific 
guidance on provisions of Tribal Energy Resource Agreement (TERA) 
regulations that tribes have identified to Interior as unclear.

    On August 31, 2017, after reviewing tribal comments, our 
Department's Office of Indian Energy and Economic Development (IEED) 
placed on its web site guidance to tribes seeking an approved TERA or 
which seek to assume energy-related administrative functions under 
Public Law 93-638. As a result, the GAO closed Recommendation 5 on 
March 8, 2018.
    In addition, IEED plans to prepare and place on its web site by the 
end of this calendar year a downloadable primer on how a tribe can 
apply for a TERA. This task was not required by Recommendation 5 but 
IEED believes it will enhance tribal understanding of the TERA approval 
process.
GAO 16-553
    Recommendation 6: Establish required timeframes for the review and 
approval of Indian Communitization Agreements (CAs) to ensure a more 
timely CA process.

    The Department is continuing its work to ensure CA processes for 
review and approval are timely. As noted previously, a National Policy 
Memorandum (Memorandum) was issued that establishes a tracking 
mechanism to monitor the existing timeframes for review and approval of 
Indian CAs. As mentioned previously, the procedure to modify TAAMS is 
in development.
    The process will be outlined in the Standard Operating Procedure 
(SOP) supported by the intent of the Interagency Agreement. The 
Interagency Agreement is signed by BIA, BLM, OST, ONRR and IEED to 
process federal Indian energy transactions. Each Agency has a role and 
responsibility to support resource development including training. SOP 
training specific to Indian Oil and Gas Leasing Activities is June 12-
13, 2018 at the National Indian Training Center in Albuquerque NM.
    We are pleased to announce that BIA can close out this 
Recommendation. BIA has made the necessary enhancements to TAAMS which 
establish processing steps and required data entry. The timeframes and 
process established through this recommendation will be utilized as the 
business rules for the development of the CA tracker that will be added 
to TAAMS in the near future that will address recommendation number 7.

    Recommendation 7: Develop a systematic mechanism for tracking 
Indian CAs through the review and approval process to determine, among 
other things, whether the revised CA process meets newly established 
timeframes.

    The BIA developed a systematic mechanism to track Indian CAs 
through the review and approval process. Until TAAMS can be modified to 
incorporate the key identifiers and data fields, the BIA, in the 
meantime, is utilizing a centralized tracking spreadsheet. BIA leads 
the development and deployment of this tracking spreadsheet in 
consultation and coordination with BLM. BIA received an extension from 
GAO to complete this recommendation by the end of FY 2018. We are on 
target to meet this timeframe to complete and close out this 
recommendation.

    Recommendation 8: Assess whether the revised CA process is 
achieving its objective to improve the timeliness of the review and 
approval of Indian CAs, and if not, make changes as appropriate.

    Effective coordination to identify areas of improvements to key 
data fields have been progressive to assure TAAMS capabilities capture 
all aspects of the CA process. The bureaus will continue to coordinate 
to collect data, which will assist in identifying and implementing any 
necessary process modifications. It is important to know that this 
Recommendation falls in line with other TAAMS system enhancements 
already underway. It is expected that training will be provided to 
personnel to use these system enhancements by the end of this fiscal 
year 2018. The system enhancements scheduled for training are the GIS 
Mapping (Complete February, 2018), Title Status Reports (TSR), and 
Acquisition & Disposal modules. Once the CA module is complete, follow 
up to the SOP training will be coordinated and implemented.
GAO 17-43
    Recommendation 9: Include the other regulatory agencies in the 
Service Center, such as Fish and Wildlife Services, the Environmental 
Protection Agency, and the Army Corps of Engineers, so that the Service 
Center can act as a single point of contact or a lead agency to 
coordinate and navigate the regulatory process.

    The IESC is committed to establishing formal Memorandums of 
Understanding (MOUs) for each of the recommended agencies. On January 
10, 2018, the United States Army Corps of Engineers (USACE) signed the 
MOU with IESC. On June 1, 2018, the U.S. Fish and Wildlife Service's 
Principal Deputy Director also signed the MOU with IESC. The remaining 
draft MOU is in the review and signature approval process with the 
Environmental Protection Agency (EPA). We anticipate all MOUs to be 
signed before the end of 2018.

    Recommendation 10: Direct the Bureau of Indian Affairs to establish 
formal agreements with IEED and DOE that identify, at a minimum, the 
advisory or support role of each office.

    In an effort to improve communication between the two offices, an 
MOU was signed between IEED and the Department of Energy (DOE) 
outlining a partnership going forward. The IESC prepared an addendum to 
the MOU with IEED and DOE to finalize the agreement. The addendum is 
currently in the surname process within the Department.

    Recommendation 11: Direct Bureau of Indian Affairs to establish a 
documented process for seeking and obtaining input from key 
stakeholders, such as BIA employees, on the Service Center's 
activities.

    The IESC developed a process that allows key agencies to provide 
input and requests for service received on behalf of tribes from the 
IESC. The process includes guidance on the prioritization of task 
orders. The Executive Management Group of the IESC is comprised of the 
directors of the BIA, BLM, ONRR, and Office of the Special Trustee for 
American Indians (OST). The IESC began utilizing the intake forms in 
August 2017 to obtain input regularly from stakeholders. IESC is on 
target to close this recommendation.

    Recommendation 12: Direct the Bureau of Indian Affairs to document 
the rationale for key decisions related to the establishment of the 
Service Center, such as alternatives and tribal requests that were 
considered.

    The Department created the Indian Energy & Minerals Steering 
Committee (IEMSC), which is a group that helps to ensure that the 
Department meets its trust responsibility to federally recognized 
Indian tribes and the individual Indian mineral owners. The IEMSC is an 
inter-agency forum for Indian energy and mineral resource development, 
royalty management coordination, and information exchange. This 
committee is comprised of senior representatives from the BIA, BLM, 
ONRR, OST, and the Solicitor's Office. On February 6, 2018, the IEMSC 
addressed energy issues and opportunities in Indian Country. The recent 
major accomplishments of the IEMSC include:

  <bullet> Ensuring consistent answers across the Department to 
        questions in Indian country;
  <bullet> Working through issues involving underground injection;
  <bullet> Streamlining activities across agencies to avoid duplication 
        of effort; and
  <bullet> Created multi-agency policy for communitization agreements.

    In addition, this committee sponsors three Federal Partners groups 
that focus on Fort Berthold; Uintah and Ouray; and Oklahoma, Texas, and 
Kansas.

    Recommendation 13: Direct the Bureau of Indian Affairs to 
incorporate effective workforce planning standards by assessing 
critical skills and competencies needed to fulfill BIA's 
responsibilities related to energy development and by identifying 
potential gaps.

    IESC identified energy and minerals workforce data collected from a 
multi-agency survey to align with workforce needs for energy and 
minerals management. The information gleaned from the survey confirmed 
common needs across agencies in the areas of engineering, engineering 
technicians and environmental science disciplines at the forefront of 
identifying the availability of the resources for economic development.
    Based on responses to the survey and current data, BIA attrition 
over the past 5 years has resulted in a potential gap of 33 to 50 
engineers, engineering technicians, and environmental scientists, 
within the Trust functions across the BIA. Current retirement 
statistics show that 59 percent of the employees who occupy these 
positions are eligible for retirement now or within 5 years.
    With the data collected from the survey and knowledge of the gaps 
that need to be filled, the BIA will work with the IESC and partner 
bureaus to develop effective workforce standards to address the need 
for the skills and competencies needed for energy development. The 
BIA's goal is to develop a draft energy and mineral workforce standards 
by the end of FY 2018, but no later than the end of that calendar year.

    Recommendation 14: Direct the Bureau of Indian Affairs to establish 
a documented process for assessing BIA's workforce composition at 
agency offices taking into account BIA's mission, goals, and tribal 
priorities.

    In previous testimony, BIA indicated it was assessing the BIA 
Indian energy and mineral workforce composition using the same process 
as described in Recommendation 13. The same data and results from the 
survey conducted will provide a starting point for BIA to establish a 
documented process that will allow BIA to assess its workforce 
composition. The composition will, of course, take into consideration 
BIA's mission and goals, and also tribal priorities.
    Presently, Workforce planning is conducted by the Regional Division 
managers working directly with the respective Deputy Directors with 
respect to Regional priorities as identified for this Recommendation. 
Once the workforce plan is finalized it is presented and reviewed with 
the Regional Director for further analysis and final approval. Amended 
organizational charts are reviewed and approved by the Regional 
Director; and as appropriate by the Director of BIA. We expect the 
workforce plan to include a documented assessment component for our 
workforce composition. The BIA is on target to complete this documented 
assessment by the end of FY 2018, but no later than the end of that 
calendar year.
Conclusion
    Thank you for the opportunity to present an update on our progress 
in addressing the GAO recommendations from past reports and the GAO 
High Risk Report (GAO-17-317 High Risk Series). I would be glad to 
answer any questions the Committee may have.

    The Chairman. Admiral Weahkee.

         STATEMENT OF REAR ADMIRAL MICHAEL D. WEAHKEE, 
         ACTING DIRECTOR, INDIAN HEALTH SERVICE, U.S. 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Weahkee. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, and members of the Senate Committee on Indian Affairs.
    I am Rear Admiral Michael Weahkee, Acting Director of the 
Indian Health Service. I am pleased to provide testimony today 
regarding IHS programs identified by the U.S. Government 
Accountability Office High Risk Report.
    Providing quality care is imperative to the IHS mission. I 
want to thank you for bringing awareness to the important 
issues and recommendations highlighted by the GAO.
    IHS is a unique agency within the Department of Health and 
Human Services as it is the only HHS agency whose primary 
function is direct health care delivery. Our mission is to 
raise the physical, mental, social and spiritual health of 
American Indians and Alaska Natives to the highest level.
    To that end, IHS is committed to making improvements and 
ultimately to being removed from the GAO's High Risk List.
    The GAO's High Risk List Report cited 14 recommendations 
focusing on the Indian Health Service. Since publication of the 
report in February 2017, the GAO has closed four 
recommendations as implemented, two recommendations as 
unimplemented, and the remaining eight recommendations are 
progressing toward completion by IHS. One request for closure 
is still under consideration by the GAO.
    IHS leadership is committed to making substantial progress 
in addressing GAO's recommendations and continues to press 
forward in a working relationship with the GAO. Since last 
September, I have met several times with key GAO officials to 
describe action plans for closing out the remaining 
recommendations.
    IHS has taken a comprehensive and integrated approach 
towards creating an oversight capability at the headquarters 
level to improve the quality of care and patient safety. We 
implemented corrective measures to mitigate high risk in areas 
directly impacting health care. These measures include uniform 
standards across all agency hospitals and clinics for 
accreditation, credentialing, patient wait times and PRC 
authorizations.
    IHS finalized the National Accountability Dashboard for 
Quality on February 20, 2018 and data for the first quarter of 
fiscal year 2018 was published on the IHS website in early 
April 2018. Data from the second quarter of fiscal year 2018 is 
currently being collected and reported internally. This 
dashboard is a valuable recording tool that will enable IHS 
headquarters and our area offices to have a viewpoint on the 
hospitals and health centers functioning across the system.
    Moving forward, IHS is working with our Department of 
Health and Human Services colleagues to establish an Office of 
Quality at IHS headquarters. This office will be responsible 
for providing oversight for quality across the IHS healthcare 
system.
    The Office of Quality will oversee, direct and evaluate 
agency-wide activities to ensure quality health care. 
Furthermore, the office will ensure that quality is integrated 
into all agency programs in a collaborative and organized 
manner.
    IHS continues to improve and increase access to care for 
our beneficiaries through outreach, education and enrollment 
activities. The National PRC Program is setting targets for 
local programs and monitoring compliance to ensure IHS is able 
to provide access for patients in the most cost effective 
manner.
    Since implementation of the PRC rates regulations in 
October 2016, the PRC Program has realized a $553 million 
savings. The savings have allowed PRC programs to pay for 
additional services and fund more medical priority levels than 
ever before which improves access to care for our patients.
    I am very proud of the dedication and commitment of IHS 
staff at all levels of the agency. We focused on and 
accomplished the objectives of the action plan during this past 
year. These actions demonstrate that IHS takes its challenges 
seriously and continues to take proactive steps to address 
them.
    I want to thank you for your commitment to improving 
quality, safety and access to health care for American Indians 
and Alaska Natives. I am happy to answer any questions you 
might have. Thank you.
    [The prepared statement of Admiral Weahkee follows:]

Prepared Statement of Rear Admiral Michael D. Weahkee, Acting Director, 
  Indian Health Service, U.S. Department of Health and Human Services
    Good afternoon, Chairman Hoeven, Vice-Chairman Udall, and Members 
of the Senate Committee on Indian Affairs. I am RADM Michael D. 
Weahkee, Acting Director of the Indian Health Service (IHS). I am 
pleased to provide testimony today regarding IHS programs identified by 
the U.S. Government Accountability Office High Risk Report. Providing 
quality care is imperative to the IHS mission and I want to thank you 
for bringing awareness to the important issues and recommendations 
highlighted by GAO.
    IHS is a unique agency within the Department of Health and Human 
Services (HHS). It is the only HHS agency whose primary function is 
direct health care delivery. IHS was established to carry out the 
responsibilities, authorities, and functions of the United States in 
providing health care services to American Indians and Alaska Natives. 
The mission, in partnership with American Indian and Alaska Native 
people, is to raise the physical, mental, social, and spiritual health 
of American Indians and Alaska Natives to the highest level. The IHS 
system consists of 12 area offices, which oversee 168 service units 
that provide care at the local level. Health services are provided 
through facilities managed by IHS, by tribes and tribal organizations 
under authorities of the Indian Self-Determination and Education 
Assistance Act, and through contracts and grants awarded to urban 
Indian organizations authorized by the Indian Health Care Improvement 
Act.
Demonstrated Progress
    IHS is committed to make improvements and ultimately be removed 
from the GAO's High Risk list. The GAO's High Risk Report cited 14 
recommendations focusing on IHS, based on seven reports issued over a 
period of six years. Since the report's publication on February 15, 
2017, GAO has closed four recommendations as implemented and two 
recommendations as unimplemented. One request for closure is still 
under consideration, and eight recommendations are progressing toward 
completion by IHS.
Leadership Commitment
    IHS leadership is committed to making substantial progress on 
addressing GAO's recommendations and continues to press forward in 
working partnership with GAO. Since last September, I have met several 
times with key GAO officials to describe action plans for closing-out 
the recommendations. IHS is focused on implementing change across the 
agency to strengthen our ability to ensure quality health care.
Progress on Improvements in Quality Care
    IHS has taken a comprehensive and integrated approach towards 
creating an oversight capability at headquarters to improve the quality 
of care and patient safety. We implemented corrective measures to 
mitigate high-risk in areas directly impacting patient care, including 
uniform standards across all agency hospitals and clinics for 
accreditation, credentialing, patient wait times, and Purchased/
Referred Care (PRC) authorizations to improve quality and 
accountability across the system of care.
    Reducing patient wait times continues to be a priority for the 
agency. Wait times are an important measure of the patient experience 
and IHS federally-operated service units have been collecting and 
tracking this data to improve patient services. Through IHS Circular 
Number 17-11, IHS established in 2017 wait time standards for 
outpatient primary and urgent care visits to direct care IHS 
facilities, and we are currently monitoring and collecting data. In 
addition, patient wait time metrics for emergency care were made 
available through the Centers for Medicare & Medicaid Services (CMS) 
and are now under agency review. A workgroup was established to 
finalize patient wait times on primary care non-urgent visits as well. 
IHS is working toward automated data collection and aggregation 
capabilities to improve monitoring.
Monitoring
    IHS finalized the National Accountability Dashboard for Quality on 
February 20, 2018. Data for the first quarter of fiscal year (FY) 2018 
was published on the IHS website in early April 2018 and data from the 
second quarter of FY 2018 is currently being collected and reported 
internally through the reporting tool. The dashboard is a valuable 
reporting tool that will enable IHS headquarters and area offices to 
have a near real-time view of health care hospitals and health centers 
functioning across the system. Over time, this will facilitate 
implementation and monitoring of quality care measures. As IHS 
continues to implement the National Accountability Dashboard for 
Quality, we anticipate the results will demonstrate sustained 
improvements in the nine key metrics tracked in the dashboard including 
accreditation and an active quality improvement program.
Organizational Capacity
    Moving forward, IHS is working with our HHS colleagues to establish 
an Office of Quality (OQ) that will be responsible for providing 
oversight for quality across the IHS health care system. The OQ will 
oversee, direct, and evaluate agency-wide activities to ensure quality 
health care. Moreover, the OQ will support IHS hospitals and health 
centers by providing a system of quality assurance to attain and 
maintain compliance with CMS Conditions of Participation and 
accreditation standards. The office will collaborate with the IHS 
Office of Information Technology to ensure that the agency has 
effective systems in place to promote patient care, encourage data 
collection and reporting, provide secure credentialing and privileging, 
and prepare for the reporting and evaluation of adverse events. The OQ 
will also focus on building a quality improvement capability and 
encouraging innovations that promote safe, effective, and efficient 
care delivery.
    IHS is committed to addressing any and all risks to our mission. 
Enterprise risk management and compliance are important components of 
the quality process. We believe the most efficient and effective 
approach for coordinating national risk management and compliance 
activities is by consolidating related functions in the OQ. The OQ will 
ensure that quality is integrated into all agency programs in a 
collaborative and organized manner.
Purchased/Referred Care Improvements
    IHS continues to improve and increase access to care for our 
beneficiaries through outreach, education, and enrollment activities. 
The national PRC program is setting targets for local programs and 
monitoring compliance to ensure that IHS is able to provide access to 
our patients in the most cost effective manner. IHS monitors the online 
PRC Rates Provider Tracking tool to assess and take action if there is 
an impediment to available care. This tool enables PRC programs to 
document providers that refuse to contract for their most favored 
customer rate or accept the PRC rate. Since implementation of the PRC 
rates regulations in October 2016, the PRC program has realized a $553 
million savings according to the fiscal intermediary. These savings 
have allowed PRC programs to pay for additional services and fund more 
medical priority levels than before, which improves access to care for 
our patients.
    IHS continues to work closely with tribal leaders in making 
decisions about PRC fund allocation. Any future changes in PRC 
allocation methods will undergo tribal consultation. As recently as 
October 2017, the Director's Workgroup on Improving PRC recommended 
maintaining the existing PRC formula without change. We were pleased to 
have GAO staff participate in two PRC Workgroup meetings where they 
engaged in discussions with tribal leaders about their recommendations. 
After discussion with the Workgroup, GAO acknowledged IHS's limited 
ability to make any changes to the PRC formula that could potentially 
result in the reduction of funds to any tribe. GAO subsequently made 
the decision to close two recommendations concerning the PRC formula 
allocation as not implemented. In addition, IHS is updating its PRC 
policy chapter in the Indian Health Manual and is conducting tribal 
consultation before finalizing the chapter.
    I am very proud of the dedication and commitment of IHS staff at 
all levels of the agency who have focused on and accomplished the 
objectives of the action plan during this past year. These actions 
demonstrate that IHS is taking its challenges seriously, and is 
continuing to take assertive and proactive steps to address them. Thank 
you for your commitment to improving quality, safety, and access to 
health care for American Indians and Alaska Natives. I am happy to 
answer your questions.

    The Chairman. I would like to thank the witnesses. We will 
proceed with questions.
    First, Mr. Rusco, how does the GAO continue to monitor 
problem areas after recommendations have been closed out?
    Mr. Rusco. At the very least, every calendar year, we 
review every open recommendation. We go to the agency to see 
what progress has been made. In the case of working with the 
BIA, we have been doing that much more frequently.
    We have found the working relationship to be generally very 
good. They have been making progress in almost all of the 
recommendations we have made. As of today, there are two that 
have been closed, one yesterday, and we got some more 
information.
    I would like to say the one key recommendation they were 
able to close is to implement a good, solid GIS system for 
identifying property lines. This will enable BIA to more easily 
identify landownership.
    In the event of someone wanting to develop a piece of land 
for energy or any other economic development, having that 
ownership data right at hand in the GIS system will make a big 
impact. That is one recommendation they have managed to close.
    The Chairman. Mr. Dearman, the GAO stated in its written 
testimony about 50 percent of all BIE positions have not been 
filled. These vacancies obviously impact educational services 
and basic operations. What are your barriers to getting these 
positions filled?
    Mr. Dearman. Thank you, Senator.
    First off, if you know anyone who wants a challenge, a very 
rewarding job, send them to BIE.
    The Chairman. Vice Chairman Udall always likes a challenge.
    Mr. Dearman. We have had many. As we discussed in previous 
hearings, isolation and the location of our schools and also 
the location of our physicians has been an issue in the past. 
We have really worked with the Department to actually move some 
of the positions out of D.C. because we have heard from tribal 
leadership that we need to have positions in tribal 
communities.
    An example of what has happened is moving the positions to 
where the tribes are. We have a chief academic officer 
position, a SES position critical in our organization. We have 
advertised that position in Washington, D.C. and received five 
applicants. We moved it to where the tribes are and when I 
checked last week, we received 139 applicants.
    We are anticipating that by relocating the positions, the 
locations, we are going to recruit and be able to hire some 
tribal members that know our tribal communities and our 
schools.
    The Chairman. That sounds like a good idea.
    Mr. LaCounte, obviously if you go through the number of 
recommendations outstanding and how you will start closing out 
some of those on energy, with your background and experience 
and where you have been geographically, it seems to me you 
should have some pretty good insight and ability to work in 
this area.
    We really have to get going on some of these issues the GAO 
brought forward on energy because it is a real opportunity in 
Indian Country for jobs, revenue and so forth. This is an area 
where I see entrepreneurial opportunities in tribally-owned 
industries and individually-owned businesses. We have to help 
them. That is something we need to get a push on.
    How do we do that? How do we get this going? Then I will 
come back to Mr. Rusco to see how we follow up so we know this 
is moving and we are getting good progress going.
    Mr. LaCounte. It is already going. I was tasked in 2015 to 
put together a standard operating procedures manual and a 
training set for all of Indian Affairs. To date, we have 
trained over 500 people through that course. There is a course 
happening in Albuquerque, New Mexico, as we speak. There are 60 
employees in that.
    We are not limiting it to your standard suspects, realty 
specialists and whatnot. We want to train as many people as we 
can so when we have another boom like occurred in your State, 
we are ready to strike. We have put that together and it is 
happening. We have a National Policy Memorandum establishing 
that.
    We have entered into agency agreements with BLM, OST, and 
ONRR to do these things and they are part of this SOP training. 
We have plenty of things happening. It is unfortunate that some 
of those were not reported to this Committee.
    I have a very capable assistant that I raided from another 
location who has the same type of background that I have. Her 
name is Johnna Black Hair. She has been vicious and bulldog on 
this to say the least. I am very confident that we can take 
care of these.
    As Senator Udall alluded, yes, there is some checked box 
but most we are looking at the long term and now to put 
something in place that cannot be very easily messed with, for 
lack of a better term.
    The Chairman. If someone wanted you to follow up on this, 
give me a timeline when you think we could do some follow up on 
this. I would probably invite you and GAO back. It may be on 
energy in a broader sense or maybe just this configuration 
again. I am going to ask Admiral Weahkee the same question in 
the next round.
    What would you say is a productive timeline to bring you 
back so we can hone in and you can give us a good progress 
report?
    Mr. LaCounte. I would say around the first of October.
    The Chairman. Okay.
    Mr. LaCounte. We have plenty of things in motion that 
should be completed in September. I am confident we will stay 
on those timelines.
    The Chairman. Okay. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Admiral Weahkee, as I mentioned earlier today, progress on 
closing GAO recommendations and service reports, with a renewed 
focus on improving quality of care, has not been enough to fix 
the accreditation issues at the Gallup Indian Medical Center.
    Given that disconnect, I am concerned that the Service is 
not being forthcoming enough about the resources it needs to 
quickly bring facilities facing accreditation issues into 
compliance, let alone the resources it needs to enact real, 
meaningful agency reforms.
    Since GIMC joined the list of facilities in jeopardy, what 
is the total amount of funding that has been put toward 
addressing its accreditation issues?
    Mr. Weahkee. Specifically for Gallup, I would have to go 
back and pull those numbers together. We do have access to the 
Accreditation Emergency Fund which is a relatively new line 
item. The majority of that fund has been used in the Great 
Plains, although Gallup is currently putting together their 
list of projects that need support.
    Off the top of my head, the major areas of need are 
staffing for ED contracts. Eighty percent of their nursing 
staff is via contract. Those contracts are at a very high cost. 
Also ED-provider contracts and some renovation work both to 
their HVAC system and to moving clinics around within the 
facility are areas of need.
    In your opening comments, you mentioned the age of GIMC. 
The upkeep costs at Gallup are extensive.
    Senator Udall. Admiral Weahkee, I would ask that you please 
get back to me and my staff as quickly as you can with the 
information on the costs and what funding is being addressed to 
this accreditation issue.
    Does the Service have all the financial resources and 
personnel it needs to address these issues before the deadlines 
imposed by CMS?
    Mr. Weahkee. Specifically for Gallup, we still have very 
high vacancy rates. We have identified a number of strategies 
to fill those gaps, contracting being one of those. However, we 
are looking at some other strategies, working with the Office 
of the Surgeon General to identify commissioned Corps 
appointees for that location.
    We also have a couple of A-19 proposals that have been 
submitted through the budget process to enable us to provide 
more scholarships and loans to students and new graduates, if 
we can address the taxability issue and the ability to provide 
pay-back on a half-time basis.
    We do have a number of things we would like to implement 
but we need a little bit of help in turning that corner.
    Senator Udall. I know IHS faces an uphill battle when it 
comes to the age of its facilities. I know the same is true 
with IHS workforce recruitment and retention. On the whole. we 
can all agree that IHS is under-resourced.
    I am committed to doing everything I can to address these 
issues head-on. In order for both of us to be effective, I need 
IHS to stand ready with information about what resources it 
needs.
    Mr. Dearman, earlier this year, the Department of Education 
sent a letter to BIE reporting that the Bureau failed to comply 
with the required accountability timelines set out in the 
Elementary and Secondary Education Act.
    As a result, the Department indicated it would withhold 
Title I administrative funding from the Bureau. This news was 
particularly concerning for us to hear as many members of this 
Committee, including myself and Senator Cortez Masto, have 
repeatedly asked you at hearings about whether BIE is meeting 
student accountability reporting standards.
    What is the current status of the withheld funds? Could you 
answer yes or no, is BIE now in full compliance with ESEA?
    Mr. Dearman. The yes or no answer would be no, Senator. I 
need to explain and I can explain in writing in more detail.
    The letter between BIE, the MOA that we had with the 
Department of Education and BIE, gave us a deadline of October 
2 to have negotiated Rule Committee members submitted to the 
White House.
    Senator Udall. The second of what year?
    Mr. Dearman. October of 2017.
    Senator Udall. Okay.
    Mr. Dearman. They gave us a timeline of having our 
committee members sent to the White House for vetting. There is 
a process we have to go through to get a negotiated rulemaking 
in place. We need to have tribal consultation regarding that. 
That was why the funds were being withheld and are still 
currently being withheld.
    We are meeting with the Department of Education. Our 
leadership and the Department are also meeting with the 
leadership of the Department of Education. We will start having 
regular discussions about how we can receive assistance and now 
we can assist each other.
    A lot of rapport is being built with the Department of 
Education. We look forward to a continuing relationship.
    Senator Udall. Mr. Rusco, how might issues like BIE's non-
compliance with Federal data monitoring standards impact GAO's 
evaluation of BIE's high risk progress?
    Mr. Rusco. I will turn that over to my colleague.
    Ms. Emrey-Arras. I am Melissa Emrey-Arras, Education 
Director, BIE.
    Senator Udall. Thank you.
    Ms. Emrey-Arras. We have not specifically looked at the 
issue being discussed but I would say we are generally 
concerned about management challenges at BIE. Given the limited 
funding and the tremendous need at schools, we think it is 
critical that all Federal resources go where they need to be 
which is at these schools. Our interest would be in having the 
funds go to the schools as well.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Admiral Weahkee, according to your written 
testimony, IHS established wait time standards in 2017 for all 
patient primary and urgent care visits to direct care IHS 
facilities. What progress have you made in meeting those wait 
times?
    Mr. Weahkee. Thank you, Mr. Chairman.
    We have approximately two-quarters worth of data now. As an 
agency, overall, we are meeting the standard. However, if you 
look at some of the individual sites, we do have some sites not 
meeting the 28 days for a primary care appointment or the 48 
hours for an urgent care appointment.
    The Chairman. What do you do to address that?
    Mr. Weahkee. We dig deep and do a root-cause analysis to 
really determine why they are not meeting the standard. In many 
of the cases, it is staffing and the inability to recruit 
appropriate staffing. In some cases, it is the design of the 
facility where there is maybe one provider to one room as 
opposed to what would be more ideal, one provider having access 
to three to four rooms so they can see patients more 
efficiently.
    Both of those root causes require funding and resources in 
order to address them.
    The Chairman. If those individuals then go to a facility 
that is not an IHS facility off reservation or wherever, are 
you getting reimbursement to those institutions in a timely way 
so they will provide care to individuals who are not able to 
access care at an IHS facility?
    Mr. Weahkee. For PRC referrals specifically, we do have new 
metrics in place where we are measuring those patients we refer 
and patients who self-refer. Those metrics are identified as 60 
days prompt pay for our IHS referrals.
    The Chairman. How about self referral?
    Mr. Weahkee. For self referral, 45 days is our metric. We 
benchmark against Kaiser Permanente and our fiscal 
intermediary, Blue Cross Blue Shield, to come up with those 
benchmarks.
    The Chairman. You are meeting?
    Mr. Weahkee. We are not meeting that. Currently, we are at 
61 days.
    The Chairman. Would you provide this Committee with a 
report on how you are doing both on IHS referrals and self 
referrals in terms of providing that reimbursement?
    Mr. Weahkee. Yes, sir, we can.
    The Chairman. To the extent that you are behind or 
backlogged at IHS facilities, there has to be some place these 
people can go. They cannot get care or it is going to be harder 
for them to get care if those institutions are not getting 
reimbursed.
    Mr. Weahkee. We can get you that data, sir.
    The Chairman. Okay.
    The credentialing, I am still running into situations where 
I have health care officials raring to go on the reservation 
and provide care, dentistry, for example, and they are having 
trouble getting credentialed. How do we make sure we have this 
squared away?
    Mr. Weahkee. I believe the issue, specifically with 
dentists, dental providers, and dental professionals, is they 
are not used to going through a comprehensive, hospital-based 
credentialing process. Most of them work in general offices or 
either standalones.
    The level of scrutiny and the process we use within the 
Federal system has more comprehensive background investigation 
checks. I think the centralized credentialing system we have 
put in place will help because the burden will be up front once 
they have entered their information. That information will now 
be portable from site to site. It will just be a matter of 
keeping their information updated in terms of licenses. There 
is a bit more complexity involved in hospital-based 
credentialing.
    The Chairman. I would like a point person from IHS who will 
work with this Committee and I will have someone from the 
Dental Association. I want to at least get those people 
together to see if we can work this out because I am still 
hearing, particularly from dentists and there may be others, 
that we have professionals willing to go onto the reservation 
and provide care that is not being provided now. We do not want 
to hold them up because of red tape or bureaucracy.
    Mr. Weahkee. I would like to identify right now Dr. Michael 
Toedt, Chief Medical Officer, as that point person.
    The Chairman. Okay. Thank you.
    Mr. Weahkee. Thank you, sir.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    I applaud IHS for the strides it has made since the first 
high risk hearing last May, but despite this progress, since 
then, two more federally-operated IHS facilities are reportedly 
at risk of losing their CMS accreditation. I am deeply 
concerned that IHS is not doing enough to create real, lasting, 
agency-wide improvements.
    Admiral Weahkee, do you agree there appears to be a 
disconnect between the IHS's reported progress on GAO high risk 
designation and the continued noncompliance findings of CMS 
surveys?
    Mr. Weahkee. No, sir, I do not. I believe that many of the 
actions that have been implemented at the national level, we 
have yet to see their benefit, items like the centralized 
credentialing and the National Accountability Dashboard for 
Quality which is relatively new.
    The GAO has identified for us that they need to monitor us 
on a longer trajectory. Again, the issues tend to be the same 
from site to site. It is inability to recruit, emergency 
department staffing and many facilities issues, like 
environment of care and life safety issues, are due to the age 
of the facilities.
    Senator Udall. In your testimony today, you said, ``IHS is 
taking a comprehensive and integrated approach towards creating 
an oversight capability at headquarters to improve the quality 
of care and patient safety.''
    When was the last time IHS conducted internal quality and 
compliance surveys at GIMC and Crow-Northern Cheyenne Hospital?
    Mr. Weahkee. Internal with an IHS review team, I would need 
to go back and identify. We have contracted that work with 
Joint Commission Resources. They are a consultative arm of the 
Joint Commission which comes in and does an objective review on 
our behalf via contract. We have utilized that methodology at 
several of our locations.
    Prior to having stood up the Office of Quality, that has 
been our only mechanism. Once the Office of Quality is stood 
up, we expect it will have the assets at its disposal to be 
able to go out and do those reviews ourselves.
    Senator Udall. Thank you.
    Mr. LaCounte, Acting Assistant Secretary Tahsuda recently 
told tribal leaders at NCAI's mid-year conference that 40 
percent of the Department's employees would be eligible to 
retire within the next few years.
    In your testimony, you state ``Fifty-nine percent of BIA 
employees who are engineers, technicians and environmental 
scientists are eligible for retirement now or within five 
years. This is in addition to a loss of 33 to 50 of these 
specialists in just the past five years.''
    Mr. LaCounte and Mr. Dearman, have BIA and BIE developed a 
concrete plan to deal with the Department's looming retirement 
issue, particularly the loss of field experts?
    Mr. LaCounte. Senator, thank you.
    I do not want you to think those numbers were specific to 
the energy sector. When we talked about the engineers, we talk 
about engineers across the board. They are not specific to 
Indian energy.
    Actually, we just assigned an individual to develop our 
workforce plan, within the last week, for trust services. We 
understand the risk we face with the numbers Mr. Tahsuda 
referenced at NCAI.
    I have been looking at this for over ten years. What we 
have found is that most of our employees do not leave even 
though they are eligible. For instance, I am eligible next 
month; I do not have any intentions of going anytime soon, 
unless I am run out.
    We are working on it. It has been an issue but we are 
trying our best to bring people up through the ranks, so to 
speak, to get to management positions and whatnot. Recruiting 
engineers and those kinds of people is always a priority.
    You have to understand, when that occurs, we have to 
compete with private industry, especially in the oil and gas 
business because that could be booming again. We seem to lose 
more people to that than we do to retirement.
    Senator Udall. You definitely have assigned someone to work 
on this and think about it looking at the long term?
    Mr. LaCounte. Yes, sir.
    Senator Udall. Mr. Dearman?
    Mr. Dearman. Thank you, Vice Chairman.
    As I stated in our workforce plan, we felt we have to get 
our strategic direction first. in order to determined the 
direction of the organization. Now we are going to start 
working on our workforce plan.
    Also, going back to how we advertise our teachers, we have 
increased our outreach by not just advertising our positions on 
USAJOBS, but we use multiple advertisement resources and 
websites. Right now, we are reaching over 200 universities and 
colleges where we are advertising.
    Our plan is to include our Title V employees in that 
advertisement and also getting out to Indian Country promoting 
BIE, and working with the National Education Association, 
really getting the word out that we are a good place to be. We 
have a lot of challenges but it is very rewarding. We do have a 
plan.
    Senator Udall. You do have a plan and you are going to 
dedicate people to work on that?
    Mr. Dearman. Yes. My human resource officer is watching 
this. He started today and that will be one of his tasks.
    Senator Udall. Mr. Rusco, how important does GAO feel 
workforce and succession planning are to ensuring the long term 
success of agency reform?
    Mr. Rusco. It is very important. There is a general endemic 
wave of retirement-eligible SES in the government broadly. In 
particular, also when it comes to energy issues, it is very, 
very difficult to keep the right number of engineers and 
trained professionals in order to do that work. That is 
something we found more broadly at Interior but I think it is 
also true of the BIA.
    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Vice Chairman Udall.
    I would like to thank all the witnesses. We appreciate your 
being here today.
    If there are no more questions for today, members may also 
submit follow-up, written questions for the record. The hearing 
record will be open for two weeks.
    Again, we appreciate the witnesses.
    With that, this hearing is adjourned.
    [Whereupon, at 4:26 p.m., the Committee was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Tom Udall to 
                          RADM Michael Weahkee
Workforce
    Question 1. At the first Indian Affairs Committee ``High Risk'' 
oversight hearing this Congress, GAO testified that workforce planning 
is one of the five core reasons the Department of the Interior (DOI) 
and the Department of Health and Human Services (HHS) have mismanaged 
and ineffectively administered federal Indian education, health, and 
energy programs. \1\ At this most recent hearing, GAO testified that 
vacancies in key offices at DOI and HHS limit the overall capacity of 
the Department to address the root causes of their high risk 
designation. And the Centers for Medicare and Medicaid (CMS) have 
repeatedly found staffing violations at the federally-operated IHS 
facilities in the Great Plains, Navajo, and Billings Service Areas 
where CMS accreditation is in jeopardy. What are the current clinical 
and administrative vacancy levels for IHS?
---------------------------------------------------------------------------
    \1\ High Risk, No Reward: GAO's High Risk List for Indian Programs 
Hearing Before S. Comm. on Indian Affairs, 115th Cong. 1 (2017) 
(statement Melissa Emrey-Arras, Dir. Of Education, Workforce, and 
Income Security, Gov't Accountability Office).
---------------------------------------------------------------------------
    Answer. As of May 2018, the vacancy rate for clinical positions is 
22 percent and the vacancy rate for administrative positions is 17 
percent.

    Question 1a. Is there a system in place so that Area Offices and 
IHS leadership in Rockville, MD, can monitor staffing at all federally-
operated IHS facilities to ensure they are in compliance with all 
industry and legal staffing on-call requirements?
    Answer. There are electronic reporting systems in place for 
reporting on the staffing levels at all federally-operated IHS 
facilities. IHS leadership at Headquarters is able to report and 
monitor the number of positions in each Area and every federally-
operated facility within an Area. On-call requirements are governed by 
union collective bargaining agreements to include on-call conditions, 
response times, etc. Each agreement may have different negotiated 
parameters for on-call procedures. Monitoring on-call hours is the 
responsibility of the local service unit leadership and department 
supervisors. Time spent on-call is not documented in the time and 
attendance system since, under Fair Labor Standards Act, time spent on-
call is not considered work hours (5 CFR 551.431).
    In addition, CMS Conditions of Participation and the Joint 
Commission Hospital Accreditation Standards survey include a 
comprehensive review of on-call staffing and associated procedures to 
comply with the Emergency Medical Treatment and Labor Act. This 
includes verification of Area Office Governing Body oversight of on-
call staffing and response.

    Question 2. On June 21st, the White House released a proposal 
entitled ``Delivering Government Solutions in the 21st Century: Reform 
Plan and Reorganizations Recommendations.'' \2\ This proposal would 
seek to reduce the size of the Public Health Service Commissioned Corps 
by nearly 40 percent and require agencies employing the Corps officer 
to pay their retirement costs. According to the Washington Post, ``The 
largest number of [Corps] officers--1,887--is assigned to the Indian 
Health Service.'' \3\ How many Public Health Service Corps officers 
currently work for IHS overall and, specifically, in leadership 
positions? Please provide a breakdown of number of Corps officers and 
the percentage of the total workforce they represent for each Service 
Area.
---------------------------------------------------------------------------
    \2\ Office of Management and Budget, Delivering Government 
Solutions in the 21st Century: Reform and Reorganization 
Recommendations (2018) (available at https://www.whitehouse.gov/wp-
content/uploads/2018/06/Government-Reform-and-Reorg-Plan.pdf).
    \3\ Lena H. Sun, White House want to cut this public health service 
corps by nearly 40 percent, THE WASHINGTON POST (June 27, 2018), 
https://www.washingtonpost.com/news/to-your-health/wp/2018/06/27/white-
house-wants-to-cut-this-public-health-service-corps-by-nearly-40-
percent/?noredirect=on&utm_term=.1dc8463601eb.
---------------------------------------------------------------------------
    Answer. As of July 1, 2018, there are 1,885 Commissioned Corps 
Officers assigned to the Indian Health Service (IHS). Approximately 850 
of these officers occupy supervisory positions throughout IHS, 
including roughly 500 officers in leadership positions at the Program/
Department, Service Unit, Area, and Headquarters levels.
    The number of Corps officers and the percentage of the total 
workforce they represent for each Service Area is provided below.


------------------------------------------------------------------------
                                                                Corps
                                      Civil        Total       Officer
      IHS Area           Corps       Service      Federal     percent of
                        Officers    Employees    Workforce     Federal
                                                              Workforce
------------------------------------------------------------------------
Alaska                        270           85          355       76.06%
Albuquerque                   126          916        1,042       12.09%
Bemidji                        92          486          578       15.92%
Billings                       72          935        1,007        7.15%
California                     27          125          152       17.76%
Great Plains                  151        2,130        2,281        6.62%
Nashville                      47          156          203       23.15%
Navajo                        276        3,957        4,233        6.52%
Oklahoma City                 313        1,429        1,742       17.97%
Phoenix                       299        2,279        2,578       11.60%
Portland                       97          416          513       18.91%
Tucson                         40          271          311       12.86%
IHS Headquarters               75          611          686       10.93%
Total IHS                    1885       13,796       15,681       12.02%
------------------------------------------------------------------------


    Question 2a. Did IHS work with the Office of Budget and Management 
to evaluate this proposal to reduce the size of the Corps? And does IHS 
or OMB have an estimate of how implementation of the proposed reduction 
in number of Corps members would affect each Service Area?
    Answer. The proposal states that the reduction would affect 
officers who ``do not provide critical public health services,'' and 
that newly commissioned officers would ``initially work in a hard-to-
fill area.'' Most Corps officers assigned to IHS are either fulfilling 
a direct patient care role or providing critical public health services 
in hard to fill areas in support of the overall health of American 
Indians and Alaska Natives.

    Question 2b. Does IHS have an estimate of the cost the Service 
would incur if it were required to pay for retirement of Corps 
personnel working at IHS?
    Answer. Budgetary estimates are in the preliminary stages of 
development.

                                  <all>
</pre></body></html>
